<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                         THURSDAY, MAY 1, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nighthorse Campbell (chairman) 
presiding.
    Present: Senators Campbell, Bennett, and Durbin.

                              U.S. SENATE

             Office of the Sergeant at Arms and Doorkeeper

STATEMENT OF WILLIAM H. PICKLE, SERGEANT AT ARMS

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. The hearing will come to order. We are 
going to try to start right on time. Senator Durbin is on his 
way, but I understand we have a 10:15 vote, and if we can, what 
we will do is I will have him run to vote, and I will keep 
things together, or I will go vote first, while he keeps the 
things together here, but in the essence of time, we will go 
ahead and start with my statement.
    I appreciate hearing from Sergeant at Arms Bill Pickle and 
the Capitol Police Board today, which is chaired by Mr. Pickle. 
Thank you for being here. You hold down two jobs, in that 
respect, as Sergeant at Arms and the Head of the Capitol Police 
Board, but if you want to combine your statement on both, that 
will be fine. Whatever you would like to do would be fine.

                    SERGEANT AT ARMS BUDGET REQUEST

    The Sergeant at Arms budget request totals $198 million, a 
significant increase over the current level, largely due to the 
request for the new warehouse, the Capitol Visitor Center 
projects, as well as additional staffing. I certainly look 
forward to working with you.

                     CAPITOL POLICE BUDGET REQUEST

    Our second panel will be testimony on the fiscal year 2004 
budget for the Capitol Police, and you can either come back, or 
deal with it in your first comments. And on the second panel, 
you will be accompanied by board members, Bill Livingood and 
Alan Hantman. And Chief Terrance Gainer will also make a 
statement.
    The request for the Capitol Police totals $290 million, and 
provides 401 additional staff, for a total of 2,406 by the end 
of fiscal year 2004. Your plans to increase staffing, training, 
and improve professionalism of the force are very ambitious 
and, in general, I am very supportive, having been a former law 
enforcement officer. As a deputy sheriff years ago, I have 
always tried to emphasize the importance of training and 
professionalism, and having necessary manpower, too, but we 
certainly want to make sure that the effort is underpinned with 
a good, strong strategic plan in guiding those efforts.
    I know I speak for all of my colleagues here when I say 
that we are very indebted to the Capitol Police force. They 
work some long shifts. When I come in the gate in the morning, 
I often talk to the people at the gate about their long hours, 
and I am sure they appreciate the overtime, but still, it does 
take a toll on the family when you are trying to get home to 
see your children, too.
    When Senator Durbin gets here, I may cut in to your 
testimony, Mr. Pickle, for his opening statement. But in the 
meantime, why not go ahead?

                       SERGEANT AT ARMS STATEMENT

    Mr. Pickle. Thank you very much, Mr. Chairman. It is, 
indeed, an honor to be here today and I appreciate the 
opportunity. Also, it is an honor to have been elected as the 
37th Senate Sergeant at Arms of the United States Senate. I 
will pledge to you today that I will be very forthright and 
responsive to you and this committee, and I will do everything 
I can to justify the Senate's faith in me.
    As you said, Mr. Chairman, we are requesting $198.2 million 
in this fiscal year 2004 budget. This is an increase of $40.7 
million, or just over 25 percent. It is a big increase, 
undoubtedly.
    Fifty-six percent of the increase, or just over $22 
million, is for one-time acquisitions that provide long-term 
benefits to the Senate. This includes $13.5 million for a new 
mail processing and warehouse facility. It also includes $7.7 
million to relocate the Senate recording studio to the new 
Capitol Visitor Center, and $1.5 million to furnish and equip 
the Senate side of the Capitol Visitor Center.

                           WAREHOUSE FACILITY

    The new mail processing and warehouse facility will enable 
us to eliminate $700,000 in annual recurring costs. These costs 
include expenses for leases and package processing. The current 
warehouses are dispersed throughout the D.C. area, but they do 
not meet minimum GSA requirements, and the costs to do so would 
be very significant.
    Besides meeting the GSA requirements, the new warehouse we 
are looking for will also provide more space so that the Senate 
can take advantage of volume purchases. It will also provide 
better quality storage, so that the Capitol's furniture and 
fixtures that are warehoused there will have a longer, useful 
life, and it will provide climate control and other features to 
meet the special needs of the Senate Curator and the Senate 
Librarian.

                            RECORDING STUDIO

    Looking at the recording studio, what we hope to do is move 
into a state-of-the-art facility when it relocates to the 
Capitol Visitor Center. Other offices will also move to the 
Capitol Visitor Center, and this budget request funds the 
purchase of furniture, fixtures, and equipment for all the 
offices that will occupy the new Visitor Center, the Senate 
side, that is.

                          ONGOING INITIATIVES

    The balance of this roughly 25 percent increase, or $17.9 
million, will fund ongoing initiatives. And of that amount, 
$5.9 million will fund package processing and a full year of 
maintenance for the alternate computing facility. Once the mail 
processing and warehouse facility is approved and completed, 
the package processing funds will be eliminated.
    Providing additional resources to install, support and 
maintain the Senate's computing infrastructure will cost $4.7 
million, and this will be accomplished through our IT support 
contract, a fairly new contract and one that has been extremely 
beneficial to us in the last few months.
    Funding the COLA, or the cost of living adjustments, and 
salary increases will cost $4.2 million, and the remaining $3 
million will be spread across various programs in the Senate 
Sergeant at Arms office.

                         SERGEANT AT ARMS STAFF

    Mr. Chairman, I have been here all of 7 weeks, and so I am 
a real expert as you can tell, but in that short time, I have 
seen some of the accomplishments of this extremely hard-working 
staff that I have. They are dedicated; they work long hours. 
And in all my years of public service and working for a number 
of what I think are just outstanding agencies, I do not think 
there is a better, more professional staff than what we have in 
the Sergeant at Arms Office.
    They have a number of challenges before them. They have 
faced a number of challenges very successfully, and I am sure 
we are going to meet the challenges together, especially with 
the help of this committee.

                        ROLE OF SERGEANT AT ARMS

    Certainly, the role of the Sergeant at Arms Office has 
changed over the years. I was first exposed to it about 25 
years ago, and when I was exposed to it at that time, it was a 
much different environment. Today, it has just enormous 
challenges, duties, and responsibilities.
    We say that we balance the need to keep the people's house 
open so that the American public and the people around the 
world can see our democracy in action, and we do, indeed, do 
that, and we do it with the competing needs and interests for 
the safety of the members, staff, and the visitors. We balance 
providing efficient common services, with delivering individual 
services and solutions to Senate offices, and we work to use 
the taxpayers' money very responsibly, while providing 
outstanding service.
    We will provide you, this committee and the Senate, with 
the best security, service, and support that we can. That is 
our challenge, and that is what we intend to do, sir.
    My written testimony today will focus on the progress in 
two key areas, Senate security and emergency preparedness, and 
the services and the support that the Office of the Sergeant at 
Arms provides to the Senate community. I would like to offer 
that testimony for the record.

                           PREPARED STATEMENT

    Senator Campbell. Your complete written testimony will be 
included in the record. You can abbreviate it, if you would 
like.
    Mr. Pickle. Thank you. I would be happy to take any 
questions with the balance of my time, sir.
    Senator Campbell. Okay. Thank you.
    [The statement follows:]

           Prepared Statement of Honorable William H. Pickle

                              INTRODUCTION

    Mr. Chairman and Members of the Committee, thank you for inviting 
me to testify before the Committee on Appropriations as I begin my 
service to the Senate community. It is an honor to be elected the 37th 
Senate Sergeant at Arms, and I pledge to you that I will serve the 
Senate faithfully.
    I am respectfully requesting a total budget of $198,240,000, which 
is an increase of $40,656,000, or 25.8 percent over the fiscal year 
2003 budget. The $40.6 million increase will fund a variety of 
programs.
    Over half of this amount (56 percent, or $22.7 million) is for one-
time acquisitions that provide substantial long-term benefits to the 
Senate community. This includes $13.5 million for a new mail 
processing/warehouse facility and $9.2 million to relocate the Senate 
Recording Studio and furnish the Senate space in the Capitol Visitor 
Center (CVC).
    The new mail processing/warehouse facility will enable us to 
eliminate $1.5 million annually in recurring costs, including lease 
expenses and outsourcing expenses for package processing. The current 
warehouse facilities do not meet minimum GSA requirements and the costs 
to meet those requirements would be significant. Other long-term 
benefits this facility will afford are volume discounts for Secretary 
of the Senate and Sergeant at Arms purchases; a longer useful life for 
furniture and fixtures warehoused for use in the Capitol; and 
specialized storage to meet the needs of the Senate Curator and the 
Senate Librarian.
    Relocating the Senate Recording Studio to the Capitol Visitor 
Center and furnishing the Senate side of the Visitor Center will move 
the Recording Studio into a state-of-the-art facility in the CVC and 
provide furniture, fixtures, and equipment to outfit and support its 
operation. The relocation will cost $7.7 million and the furnishings 
will cost $1.5 million.
    The balance of the requested increase (44 percent or $17.9 million) 
will fund initiatives that are ongoing. We are requesting $5.9 million 
to fund a full year of maintenance of recent security enhancements at 
the Alternate Computing Facility and the outsourcing of package 
processing--upon approval and completion of the mail processing/
warehouse facility, the funds for outsourcing package processing will 
be eliminated. The IT Support Contract will require $4.7 million to 
provide additional resources to install, support, and maintain the 
Senate's computing infrastructure. Funding of the COLA and salary 
increases will cost $4.2 million. The final $3.1 million are spread 
across the programs in the Office of the Sergeant at Arms.
    Mr. Chairman, I come before you with six weeks of experience as 
Sergeant at Arms. In that short time, I have already seen some of the 
accomplishments this hardworking and dedicated office has achieved. I 
have also seen some of the challenges that we face and some of the 
opportunities that present themselves. Our budget request will enable 
us to meet the challenges we face.
    The role of this office has changed dramatically over the years. 
The duties and responsibilities of the Sergeant at Arms have expanded, 
become more complex, and increasingly interdependent, requiring us to 
balance the Senate's competing needs.
    We balance the need to keep the ``People's House'' open so that the 
American people and the world may see our great democracy at work with 
the need to keep the Capitol safe for Members, staff and visitors. We 
balance providing efficient, common services with delivering individual 
services and solutions to Senate offices. We work to use the taxpayers' 
money responsibly while providing outstanding service and support to 
the Senate. The Office of the Sergeant at Arms will provide you the 
best security, service, and support that we can, and we will work with 
this Committee in doing so.
    Our testimony today will focus on the Senate's progress in two key 
areas: the Senate's security and emergency preparedness and the 
services and support the Office of the Sergeant at Arms provides to the 
Senate community.

                  SECURITY AND EMERGENCY PREPAREDNESS

    Before September 11, 2001, the preparedness of the Capitol complex 
paralleled the preparedness of the rest of the United States. While we 
had more security in place than the rest of the country, we pursued it 
on an as-needed basis, not in a comprehensive or integrated way. When 
we identified specific threats, we responded. For example, the Capitol 
Police implemented security upgrades in the three years following the 
tragic shootings of Detective John M. Gibson and Officer Jacob J. 
Chestnut in July 1998. We had also started working on security of the 
mail, and had some rudimentary continuity of operations plans in place, 
but we had no comprehensive strategy for ensuring the safety of the 
Senate. No one had ever attacked the Senate at the level we experienced 
in 2001, so we did not fully comprehend how much we needed additional 
security measures to save lives and restore Senate operations.
    September 11, 2001, provided a wake-up call, and we responded. 
Thankfully, with the preliminary work we were doing, we were in a 
position to respond rapidly when the bioterrorist anthrax attacks 
occurred on October 15, 2001.

Security Strategy
    The wake-up call of September 11 and the Senate's experience with 
our nation's largest bioterrorist attack on October 15 underscored the 
need for an enhanced, comprehensive security strategy for the Senate in 
2001. The strategy that emerged ensures the continuation of the Senate 
under any circumstance and protects Members, staff, and visitors, while 
maintaining the essential public nature of the Senate. I am committed 
to continuing that tradition and strategy.
    Our strategy accomplishes its objectives by establishing a layered 
defense based on threats that we know and those we can anticipate. It 
creates security plans and takes actions to prevent incidents from 
occurring. It includes training and exercise programs to ensure 
preparedness. And the strategy identifies the resources we need to 
manage the consequences and respond appropriately to ensure the 
Senate's continuity of operations if an incident does occur. It 
eliminates single points of failure, and develops system redundancy, 
mobility, and flexibility to ensure that the Senate can continue to 
function even in the face of an emergency.
    The programs and resources to implement this strategy are in place. 
The people who implement the programs know the urgency of completing 
them, and continue to move forward quickly, and deliberately.
    Our Office of Security and Emergency Preparedness (OSEP) 
coordinates its activities with those of the U.S. Capitol Police and 
other agencies to implement Senate security, emergency preparedness, 
and continuity of operations plans and programs. It combines its 
efforts with other offices within the Sergeant at Arms organization to 
make sure that all of our work takes security concerns into account. 
And OSEP works with every Senate office, here and in Senators' home 
states, to bring the Senate community the equipment, information, 
assessments, and training it needs.
    The Senate funded many of our programs with an emergency 
supplemental appropriation to support life-safety, threat reduction, 
emergency preparedness, continuity of government and operations, and 
consequence management and recovery programs. The emergency 
appropriation totaled $632.9 million for the entire legislative branch. 
The Office of the Sergeant at Arms received $58.2 million to fund 
Senate-specific security and continuity-related programs. We worked 
with this Committee and the Committee on Rules and Administration to 
establish the best ways to use these funds, and I want you to know that 
we are using them wisely.
    My office and the Office of the Secretary of the Senate are working 
with the Architect of the Capitol, the Attending Physician, and the 
United States Capitol Police to ensure that all of our interdependent, 
but separately funded, programs are integrated and synchronized. The 
efforts of these groups have substantially improved the Capitol's 
overall security posture and established a solid foundation for future 
improvements. We could not have done this without the dedicated support 
of the Senate Leadership, this Committee, and the Committee on Rules 
and Administration Security.
    A hallmark of the Senate's comprehensive security strategy is 
taking reasonable precautions to prevent incidents from occurring. Risk 
assessment falls under this area, as do perimeter security, many 
activities of the USCP, mail and package handling, and the security 
assessments we have done for virtually all Senate state offices across 
the country.
    Risk Assessment.--To increase our understanding of the threats we 
face, we assembled a Legislative Branch Emergency Preparedness Task 
Force (LBEPTF) that started a thorough threat and vulnerability 
assessment of the Senate in September 2001. The Task Force expanded its 
assessment to House facilities in October 2001. LBEPTF completed the 
assessment in January 2002 and published it in April 2002. It resulted 
in many immediate improvements (e.g., fire alarm markings and 
functionality, exit markings, and publication of evacuation plans). The 
assessment also identified long-term actions for the Senate's security 
and preparedness and we have moved forward on those actions.
    U.S. Capitol Police.--One urgent need that has been identified is 
that the U.S. Capitol Police force (USCP) was not sufficiently staffed, 
trained, or equipped to accept the expanded duties the new threat 
situation required. To address this problem, with agreement of the 
Congress, the U.S. Capitol Police force will increase its full-time 
equivalent (FTE) staff positions and its capabilities. There were 1,481 
FTEs in 2001, and the size of the force is growing. At the same time, 
the USCP increased its internal ability to respond to hazardous devices 
and materials by adding personnel, equipment, and vehicles to its 
Hazardous Devices Section.
    The USCP also increased the number of posts and added more roving 
patrols including vehicle, bicycle, and K9 patrols. Importantly, the 
USCP has established or increased its liaison positions and officer 
exchanges with intelligence organizations and other law enforcement 
agencies throughout local and federal government. The Office of the 
Sergeant at Arms works closely with the USCP on increased security 
procedures for daily and special events, access control, and screening 
measures.
    I am a member of the Capitol Police Board, and this year, I chair 
the Board (the chairmanship alternates with the House Sergeant at Arms 
annually). My position on the Police Board helps ensure that the 
security efforts of the USCP align with the priorities and direction of 
the Office of the Sergeant at Arms.
    Perimeter Security.--I am pleased to inform you that the 
implementation of the initial phase of the Perimeter Security Plan, 
first proposed in 1998, was completed in 2002. After September 11, 
2001, we were asked to develop a plan to provide a similar level of 
protection to Senate Office buildings. My office and other security 
experts developed a plan, and the Committee on Rules and Administration 
recently approved it. The Architect of the Capitol will soon begin 
implementation of the enhanced perimeter security plan.
    Physical security measures represent one aspect of perimeter 
security and the Capitol Police force represents another. The physical 
security measures include bollards and pop-up vehicle barriers. The 
Capitol Police force staffs the revised access checkpoints and enforces 
procedures, staffs the expanded use of K9 patrols, enforces the 
restriction of oversized vehicles, and supports other measures that 
safeguard against vehicle-borne threats. Together, the Police and 
enhanced physical security measures prevent attacks from vehicles or 
their contents.
    To prevent other attacks, we improved visitor access and screening 
procedures for all Senate Office Buildings. When we offer public 
Capitol tours, we screen the visitors outside the Capitol. We enhanced 
that screening as well as the screening of visitors on staff-led tours 
coming from the Senate Office Buildings.
    The Office of the Sergeant at Arms has also undertaken other, less 
visible, security improvements and safety systems that significantly 
improve the Senate's overall security posture. We implemented extensive 
security at the Capitol Visitor Center project during its construction 
that includes background checks of workers, off-site vehicle screening, 
physical inspections, a vehicle x-ray system, K9 explosive detection 
sweeps, and strict access control and monitoring measures.
    Mail Handling.--Throughout the October 2001 anthrax event, we 
gathered information that would be useful in our efforts to prevent 
similar incidents; to prepare in the event an incident does occur; and 
to create plans, training, and resources to manage the consequences and 
respond appropriately to an incident and ensure the Senate's continuity 
of operations. We worked with the Department of Defense, the White 
House Office of Science and Technology Policy, the United States Postal 
Service, package delivery service companies, local couriers, the 
Committee on Rules and Administration, and Senate offices to develop 
procedures to improve the safety and security of Senate mail.
    During January 2002, this office established the Legislative Mail 
Task Force (LMTF), made up of representatives from medical and 
scientific agencies as well as those described above. Its purpose is to 
ensure safe and timely mail delivery. The LMTF remains operational and 
is still investigating ways to provide better and safer mail delivery 
to the legislative branch.
    We sealed mailing chutes and removed unmonitored mailboxes in the 
Senate Office Buildings and the Capitol to eliminate the possibility of 
a harmful agent being deposited in them. We also adopted mail handling 
safety procedures that include irradiating, x-raying, testing, and 
holding all mail until we receive negative test results.
    We worked with all offices across the Senate, conducting briefings 
and providing information so staff would know how to identify 
suspicious mail and report it promptly to the Capitol Police and Senate 
postal officials. We also advised Senate offices that they should only 
accept letters and packages from uniformed Senate Post Office employees 
displaying a valid ID, or from bona fide couriers.
    These procedures have become the model for other agencies in the 
legislative branch. Since resuming mail delivery to the Senate, we have 
delivered over 25,000,000 safe letters and have reduced the time to 
deliver them from an average of several weeks to six days. Moreover, we 
leveraged our existing people and resources to create our own mail-
handling program, costing the Senate several million dollars less than 
other legislative branch agencies that outsource their mail handling 
programs.
    Package Handling.--The Package Tracking and Management System that 
we developed and implemented last summer is a great example of 
cooperation within the Office of the Sergeant at Arms to bring new 
services to the Senate community. Our IT Support Services staff 
developed this new Web-based system using requirements from the Senate 
Post Office, the Committee on Rules and Administration, and our user 
community, along with vital participation from our Customer Support and 
Training areas. The system enabled us to deliver more packages during 
its first four weeks of use than our vendor had been able to deliver 
during the previous five months. The technology cost less than $50,000 
to implement, compared to our package vendor's proposed $1.5 million 
solution. Using the system we developed in-house, we deliver safe 
packages three days (on average) after we receive them, which is 
considerably less time than the several weeks that was the norm under 
the previous system. We are working with the Committee on Rules and 
Administration to see if we can reduce that time even further.
    Capitol Visitor Center (CVC).--Congress had planned to build a 
Capitol Visitor Center for several years, not only to improve security, 
but also to provide better visitor services. Until September 11, the 
project moved slowly. After September 11, as part of the emergency 
supplemental appropriation, funds for the CVC were approved, and 
construction began.
    In 2000, almost three million people visited the Capitol and during 
peak season over 18,000 people visited the Capitol each day. Tons of 
equipment, food, and other material move into and out of the Capitol 
daily. These provide critical services but they also create risks to 
the Capitol complex.
    The CVC will help us better control the flow of visitors and 
material moving in and out of the Capitol, without reducing public 
access. Once the CVC is completed, we will have just as much public 
access through fewer access points, and we will have better screening 
and control of everyone and everything that comes into the Capitol. 
That screening will take place in the CVC instead of near Capitol 
doors.
    Because of the design of access points, we will be able to better 
screen, and isolate and remove an individual or group that poses a 
security risk. Deliveries to the Capitol will go through the CVC, which 
will include a remote delivery-vehicle screening facility. This 
facility will make it both easier to deliver goods to the Capitol and 
safer to accept those goods. The design incorporates many blast-
resistant features as well as systems that will minimize the risk of 
airborne hazards within the CVC and the Capitol.
    CVC construction and the implementation of the 1998 Perimeter 
Security Plan created one challenge: Parking. When the CVC construction 
project was approved, planners found that as many as 350 staff members 
would have to move to parking spaces farther from the Capitol. Our 
Parking team worked with the Architect of the Capitol, the U.S. Capitol 
Police, and the Committee on Rules and Administration to create 359 
parking spaces. Many of the spaces came from reconfiguring existing 
parking spaces (i.e., converting parallel parking spaces to diagonal 
spaces and converting the former locations of construction trailers 
into parking lots). These efforts have already saved over $1 million in 
leases for parking spaces, and we expect that they will save over $3 
million before the CVC construction is finished. The solution is 
secure, near the Capitol, and convenient for Senators and staff. It 
also makes good use of existing resources and taxpayers' dollars.
    State Offices.--In 2001, we had little information on the level of 
security of Senators' state offices. Some assessments had been done 
over several years, but we had old, inconsistent information. We moved 
aggressively to address this problem by establishing a plan to conduct 
comprehensive, on-site security assessments at all Senators' state 
offices. We finished the assessments for all offices that were in place 
in the fall of 2002, and implemented a system whereby every newly 
established office will be assessed as well.
    These surveys will enable the Sergeant at Arms to understand fully 
the security needs of our state offices, make recommendations, 
prioritize security needs, and improve security. This will be an on-
going, multi-year project and will involve physical modifications, 
monitoring, and staff training.
    As we think about the security of the Senate since the tragic 
events of September 11, 2001, we are proud of our progress. We have 
moved forward on a wide range of initiatives, and as a result, have the 
pieces in place to keep threats out of the Capitol and the Senate 
Office Buildings.

Emergency Preparedness
    Emergency preparedness addresses how people will learn about an 
event and respond to it. Since September 2001, the Office of the 
Sergeant at Arms has enhanced the Senate's preparedness through alarms 
and equipment, emergency notification, and training.
    Alarms and Equipment.--In response to the LBEPTF Risk Assessment, 
we worked with the AOC and the USCP to test and, where necessary, 
upgrade the alarms and emergency equipment in every Senate Office 
Building. We worked with Senate offices to ensure each has an emergency 
action plan, we implemented evacuation procedures and assembly areas 
for every building, and we regularly conduct evacuation drills. We also 
recently added wireless annunciators to notify people of an incident, 
provide instructions on appropriate steps to take, and provide more 
information as an event unfolds. The Architect of the Capitol is 
upgrading building fire alarms, and is integrating both the alarms and 
the annunciators into the USCP command center system. With the Capitol 
Police, we are conducting office security briefings to review and 
reinforce office emergency action plans.
    Emergency Notification Procedures.--We have established redundant 
and flexible communications, taking advantage of existing systems and 
expanding them to enhance and streamline our emergency notification 
capabilities. We provided BlackBerry devices and updated electronic 
pagers to Senators and key staff. The USCP has a telephone system that 
can call individuals at pre-designated numbers in case of emergency. 
Approximately 1,000 Senate telephones are connected to the Group Alert 
System, which the USCP controls and can activate when needed, under 
direction from the Sergeant at Arms. A wireless alert broadcast system 
and the ongoing upgrade of building alarms and public address systems 
will further improve emergency notification. The evacuation alarm 
systems already include both audible and visual alarms. Together, these 
systems provide broad emergency notification capabilities to the 
Senate. With the establishment of the Alternate Computing Facility, we 
will be able to implement additional emergency notification measures.
    Chemical, Biological, and Radiological Protection.--In the fall of 
2001, the Capitol Police Board recognized the need to expand protection 
in this area. One result was the purchase of a large number of 
Quick2000 Escape Hoods, which provide rapid protection from chemical, 
biological, or other hazardous particulates for Members, staff, and 
visitors to the Capitol. We have distributed Quick2000 Escape Hoods to 
each office and throughout the Senate Office Buildings. Along with the 
Capitol Police, we have trained almost 6,000 Members and staff on the 
notification process and on the donning of these hoods. We are 
undertaking other projects that further expand our ability to protect 
the Senate from chemical, biological, radiological, and other airborne 
hazards.

Continuity of Operations and Government
    The events of the fall of 2001 underscored the need for strong 
continuity of operations and continuity of government planning. The 
Senate has demonstrated its ability to respond to attacks, but we need 
to enhance and rehearse our plans so we will know what to do in advance 
of an incident.
    As part of the Legislative Branch Emergency Preparedness Task 
Force, the Defense Threat Reduction Agency assessed our infrastructure 
and recommended ways to improve it. We are now working to implement 
their recommendations. This will help ensure that the Senate can 
continue to function even in extreme emergencies.
    Infrastructure Protection.--The Office of the Sergeant at Arms was 
working to protect essential infrastructure services in the summer of 
2001. We accelerated that work significantly after September 11. We are 
implementing alternate locations for critical communications services, 
we upgraded our telecommunications backbone, and we expanded our 
conferencing capability. We also created continuity plans for critical 
enterprise computing and data services and have security measures in 
place for computing networks.
    One recommendation of the Defense Threat Reduction Agency was to 
procure a new fiber system. We are working to procure a new fiber 
system that will enhance the Senate's day-to-day network operations and 
enhance Briefing Center operations.
    Alternate Computing Facility.--In conjunction with the House and 
other legislative branch agencies, we are establishing an Alternate 
Computing Facility that will back up the computing and 
telecommunications infrastructure.
    Other initiatives to enhance the Senate's telecommunications 
infrastructure include projects to ensure that essential 
telecommunications services will be available in the event Capitol Hill 
is evacuated and to provide redundant and mobile communications and 
broadcast capabilities. One example is the ongoing fitting-out of the 
mobile recording studio vehicle and procurement of mobile 
communications vans to ensure the Senate maintains flexibility and 
mobility in these communications and broadcast services.
    Fly-away Kits.--We are creating a recommendation for a suite of 
technology that offices should acquire for their continuity of 
operations. The suite will include standard and supported portable 
computers, storage devices, printers, and network components that 
offices can use in an emergency situation. The offices will be able to 
configure the equipment off-site if they no longer have access to their 
Capitol Hill spaces and local IT resources.
    Information Security.--The Office of the Sergeant at Arms has a 
significant focus on information security. Sergeant at Arms IT security 
experts worked with experts from the General Accounting Office to 
evaluate the Senate's security controls and to recommend improvements. 
We implemented the recommendations and significantly improved the 
Senate's overall computer security. Because of good technical and 
management controls, the Senate computing infrastructure remained 
secure despite threats from various viruses and worms, including the 
``SQL Slammer'' worm in January 2003 (SQL stands for Structured Query 
Language).
    Briefing Centers.--We have established Briefing Center facilities 
for emergencies that deny the use of the Senate Office Buildings and 
the Capitol. All Briefing Centers are within walking distance of the 
Capitol. In the event of an emergency, one Briefing Center will be 
activated and all Senators informed of that location.
    Briefing Centers will provide security, communications, 
information, and caucus space for Members (and one designated staff 
member because of the limited space available) during the critical 
period immediately following an incident. The essential function of 
accounting for Senators also takes place at this location. While we 
envision a Briefing Center being in place only for a brief period, the 
Sergeant at Arms and the Secretary of the Senate have provided the 
ability for the Senate to do legislative business, if necessary.
    Alternate Chambers.--We have established Alternate Chamber 
facilities if the Capitol is not available but the Senate needs to be 
in session. The Sergeant at Arms and the Architect of the Capitol have 
completed all the modifications of the infrastructure, including 
connectivity to the Legislative Information System, communications, and 
broadcast systems so that the Secretary of the Senate can provide the 
full range of legislative services in an Alternate Chamber.
    An additional Alternate Chamber location is established off Capitol 
Hill and that site is on-track to be available this year. Alternate 
Chamber locations on and off Capitol Hill, as well as other continuity 
of government locations, will enable the Senate to continue to meet its 
Constitutional obligations in the event that the Capitol or District 
are not available.
    Transportation.--We expanded our transportation resources to make 
sure we can move Senators and key staff in an emergency. We added three 
24-passenger buses, two 15-passenger vans, and a 10-passenger van to 
our fleet. Additionally, we have arrangements to provide additional 
transportation and support if the Senate needs to move away from 
Capitol Hill.
    Continuity Planning.--Senate offices are well along in developing 
continuity of operations plans, and we are working to complete this 
critical program as soon as possible. These plans are updated every 
year. The Office of the Sergeant at Arms continues to conduct training 
and provide assistance to offices as they enhance their plans and the 
supporting documents.
    Exercise of Plans.--The Office of the Sergeant at Arms, with the 
Secretary of the Senate, conducted a series of seminars and small-scale 
exercises from May 2002 to July 2002 culminating in a successful full-
scale exercise in August 2002 that tested continuity plans and 
procedures. This exercise tested alert and notification systems and the 
activation of a Briefing Center and the Alternate Chamber. It 
demonstrated that the Senate's supporting legislative systems will 
operate in the Briefing Center and Alternate Chamber environments. In 
December 2002, the USCP completed an exercise of its internal command 
and control operations. The Sergeant at Arms' Office of Security and 
Emergency Preparedness regular exercise program will help 
institutionalize these plans and provide the framework to evaluate and 
adjust them as needed.

Preparing for the Future
    The Senate established necessary plans and programs to meet its 
security, emergency preparedness, and continuity planning requirements. 
We need to maintain the momentum of the last 18 months to be prepared 
now, and to meet evolving threats. We have a framework to ensure the 
process continues.
    The Office of Security and Emergency Preparedness (OSEP) is the 
group of professional staff within the Sergeant at Arms Office charged 
to build on that framework. OSEP's mission is to consolidate and 
sustain the Senate's security, preparedness, and continuity planning. 
These efforts will ensure that this great body is able to adapt to the 
changing threat environment, to develop and coordinate security and 
emergency plans and policies, and to implement change. We trust the 
Senate will continue to provide the resources for OSEP to conduct 
necessary, periodic exercises that rehearse mission-critical systems 
and evaluate Senate readiness. OSEP should also conduct semi-annual 
Leadership briefings to report on the state of preparedness of the 
Congress and on the progress of evolving security plans.
    The United States must have enduring Constitutional government. By 
working with common goals and the strong support of the Senate and 
Congressional Leadership, we have created the foundation to make sure 
that our Constitutional government will ensure. We must build on that 
foundation, so this institution continues and our security remains 
effective.

                   SERVICE AND SUPPORT FOR THE SENATE

    My office has dozens of other accomplishments that support the 
Senate. Let me highlight some of them.
    The Office of the Sergeant at Arms has a long tradition of 
providing customer support, infrastructure improvements, and transition 
support. We work with the Senate community to streamline and simplify 
Senate processes. This work sometimes may be invisible, but it provides 
the infrastructure that supports this very public institution. We 
employ a staff of dedicated, innovative, and cost-conscious individuals 
who are committed to the best interests of this institution and those 
we serve.
    We also have a long tradition of introducing new technologies to 
the Senate that serve as platforms for great forward-looking 
improvements in productivity and constituent services. Some brief 
examples are the microcomputer, which was not adopted by Senate offices 
as automatically as you might imagine today; the introduction of local 
area networks, and then connecting them using a Senate Fiber Network; 
and the Internet. These technologies have been leveraged to radically 
change the way we do our jobs.

Implementing the Senate Messaging Infrastructure (SMI)
    The Senate Messaging Infrastructure is another of the fundamental 
technologies that will alter the way we do our jobs, though we cannot 
yet foresee all the benefits. Its implementation will support many of 
our security initiatives and enable us to provide services that support 
key Senate functions. The Office of the Sergeant at Arms is almost 
finished with the full implementation of this important program.
    Even though we have not quite completed our implementation, the 
Senate already has a much more robust, reliable, and maintainable e-
mail infrastructure. Since the end of January 2003, we have seen almost 
no enterprise-wide e-mail problems and Senate offices have received 
their e-mail reliably, quickly, and efficiently.
    Let me briefly describe the history of the Senate Messaging 
Infrastructure. In the summer of 1998, we began a project to 
investigate and implement a replacement for Lotus cc:Mail, which the 
Senate had been using since 1987, and which the vendor would no longer 
support. The project's goal was to establish an enterprise-wide system 
as the basis on which the Senate could deploy multiple services far 
into the future. Although e-mail is currently our principal focus, the 
Senate Messaging Infrastructure will support the Senate in ways we 
cannot yet foresee in addition to the ways we are already anticipating.
    After studying the alternatives and consulting with the Senate 
community, we recommended to the Rules Committee that the combination 
of Microsoft Outlook and Exchange was the best choice for the Senate. 
In May 2000, the Sergeant at Arms asked for Rules Committee approval to 
begin implementation.
    In June 2000, the Committee approved a $6.4 million contract with 
Compaq Computer Corporation to begin implementing Outlook and Exchange. 
These systems include functionality and capabilities far beyond basic 
electronic mail, including calendaring and group scheduling, contacts 
management, note organization, and task management. The systems also 
provide a base infrastructure for other Senate applications, including 
the BlackBerry Communications system. Many other products are available 
to add to enterprise messaging systems, such as instant messaging and 
video conferencing.
    After a successful pilot, the migration from Lotus cc:Mail to 
Microsoft Exchange began in August 2002 and is now 80 percent complete. 
We have migrated 110 of 138 Senate offices, and 28 remain to be 
migrated. E-mail flows smoothly, even as the volume of e-mail continues 
to grow larger and larger. We now process nearly two million Internet 
e-mail messages a week and we have processed as many as 500,000 in a 
single day.
    The messaging infrastructure encountered periods of instability 
last fall and at the beginning of this year. We stopped the migrations 
in mid-January to find out why. We found two reasons: (1) our 
migrations reached previously unknown product limitations and (2) we 
had to upgrade our software. By March 15, we successfully stabilized 
the centralized system components and all 110 migrated offices by 
making the necessary upgrades. On March 26, we presented technical 
options to the remaining 28 offices for completing the migration. We 
expect that all offices that choose to migrate will be completed before 
the summer begins, and we are exploring more long-term design 
alternatives to overcome the product limitations. We regularly brief 
the Senate offices' systems administrators and administrative managers 
on our progress.
    We expect that we will soon integrate Exchange with other systems. 
For example, integrating the Senate Voice Mail system into SMI would 
enable the system to translate messages into a computer-readable format 
that could be forwarded as an attachment to an electronic mail message, 
or be put on a Web page for retrieval over the Senate intranet. Voice 
mail could even be set up to receive incoming fax transmissions and 
route them to the proper destination via electronic mail. We are also 
working with vendors to procure applications to support wireless e-mail 
and data; these applications will not rely on the Internet to 
communicate.
    Integrating InfoXchange, the Senate's fax broadcast system with 
Outlook and Exchange would enable offices to maintain their broadcast 
lists themselves, receive faxes in a centralized place, and distribute 
incoming faxes via e-mail. Offices could also keep their existing fax 
numbers but route them to a pool of telephone lines that could handle 
large numbers of calls. The system could translate incoming faxes into 
electronic files, the offices could identify their faxes, and the 
system could electronically mail the incoming faxes to the offices.
    Through all of our work, our priorities are to establish a stable 
Senate-wide system that works well and can support our disaster 
recovery and Continuity of Operations plans, while ensuring that 
personal office data remains private and secure.

Serving Our Customers in the Senate Community
    The Office of the Sergeant at Arms provides Senate offices the 
information, tools, and support they need to work efficiently and 
effectively. We assign customer support analysts to each office; we 
produce materials to help staff learn about equipment, policies, and 
the Senate; and we develop and host the Senate's intranet Web site and 
information services.
    The Joint Office of Education and Training, and Office Support 
Services help the Senate take advantage of the services we offer. These 
groups distribute information, promote new services, and arrange for 
briefings, including briefings on security, mail handling, SMI 
implementation, package management, Computers for Schools, Web services 
assessments, and wireless modems.
    We overhauled the Senate's intranet home page and the Sergeant at 
Arms sections of Webster to make them much more user-friendly and more 
function-based rather than hierarchical. We renewed our information 
services contracts and executed an ongoing promotional project to 
ensure that all Senate staff members know about the information 
resources available to them. We are also visiting every Senate office 
to promote Web-related support services and to gather information about 
offices' Web requirements.
    Finally, we developed a new publication, SAA Update that provides 
timely information about new and ongoing Sergeant at Arms projects to 
Senate offices.

Improving the Senate's Infrastructure & Capabilities
    We have enhanced the Senate's infrastructure and capabilities with 
improvements in every area of the Sergeant at Arms organization. I will 
point out some of the highlights.
    Recording and Photo Studio Digital Migration.--We are continuing 
with the migration of the Recording Studio and the Photo Studio to 
digital technologies. This will provide Senators with higher quality 
pictures and services for their constituents. The Recording Studio 
project modernizes the way the Senate provides the broadcast signal of 
both the Senate proceedings and individual Senators' productions by 
utilizing an enhanced digital television signal. It will also provide 
expanded desktop access to television news, Senate proceedings, and 
Committee hearing coverage. The Photo Studio modernization project 
replaces analog-, chemical- and film-based processes and systems with 
networked digital imaging capabilities. This will provide more 
immediate access for printing, ordering, and downloading images by 
Senate offices and will enable customers to track photo orders online.
    The Recording Studio successfully relocated its operations over the 
past year to accommodate the Capitol Visitor Center service tunnel 
construction. We took advantage of the move to improve our studio 
facilities by accomplishing part of the digital migration. Once the CVC 
is complete, the Recording Studio will move into that facility, and we 
will finalize the digital migration project. Relocating to the CVC will 
enable us to cover 12 Committee hearings simultaneously, up from the 
four we can cover currently.
    Printing, Graphics and Direct Mail (PGDM) instituted an online 
ordering process for all printing, photocopying, and graphics services, 
and produced over 1 million documents for the Senate that were ordered 
from desktop computers. During the past three years, we made process 
improvements that reduced PGDM's staff by 13 percent, reduced operating 
expenses by $2.5 million, and saved Senate offices over $4 million in 
postage expenses. These improvements include establishing Quality 
Improvement Teams that reduced errors 86 percent and employee 
absenteeism 40 percent; converting leased, analog, stand-alone 
photocopiers to purchased, digital, networked printers that have 
improve service and reduced expenses by $1.2 million; and educating 
Senate staff on letter-addressing procedures enabling outgoing mail to 
qualify for maximum mailing discounts.
    We enhanced our document archiving capability by introducing CD/ROM 
and DVD services for Senate offices. These services enable offices to 
access and retrieve archived information from their desktops, and send 
and print information, as they need it.
    The IT support we provide the Senate improved when we signed a new 
support contract that covers the acquisition, installation, and ongoing 
support of Senate offices' networks. We have seen much better 
performance from our new vendor. The February 2003 customer 
satisfaction surveys show that 94 percent of customers described the IT 
Help Desk's services as either very satisfactory or excellent. The IT 
Help Desk receives an average of 1,428 customer trouble calls per 
month.
    We have instituted an online catalog to begin streamlining the 
process of ordering IT products. We also replaced the servers and 
software that handle all incoming and outgoing Internet e-mail with 
more powerful servers. This improves the Senate's ability to handle 
large peaks of Internet e-mail traffic.

Supporting the Transition
    The transition from the 107th to the 108th Congress was a success. 
The 108th Congress brought 11 new Members to the Senate, and the 
Sergeant at Arms organization supported them in myriad ways during the 
transition.
    Transition Office.--We coordinated all the activities of the 
Transition Office for the new Senators of the 108th Congress, providing 
full-time staff to support the new Senators until they could retain 
their own staffs, and assisting offices with their moves into swing 
suites.
    Office Support During the Transition.--The end of the 107th 
Congress and the opening of the 108th Congress saw 93 state office 
openings, closings, or moves, all of which we accomplished with minimal 
disruption. We provided demonstrations of constituent correspondence 
management systems to staff representing all of the new Members, and 
successfully installed their selections. These new installations were 
the first to integrate fully with the Senate Messaging Infrastructure.
    The State Office Liaison helped the offices of newly elected 
Senators acquire and negotiate leases for commercial and federal office 
space in their home states. The Liaison also helped re-elected Senators 
negotiate renewal or relocation leases and did so in connection with 
security assessments.
    We moved the ten new Members to their temporary suites in the 
Senate Office Buildings. We also have moved a total of 21 Members from 
their temporary or former locations into new permanent office space.
    For departing Senators, the Office of the Sergeant at Arms staff 
met with administrative managers to provide information on archiving 
requirements, provided microfilm and CD/ROM services to archive 
Members' documents, shipped Members' archives to depository libraries, 
moved packages and mail items to Senators' home states, and scanned 
more than 26,000 photo images to CD/ROM.
    In addition to providing logistical and technical support, 
departments across the Sergeant at Arms organization provided 
information and guidance to new offices. Our administrative services 
department developed materials and our Joint Office of Education and 
Training provided training for administrative managers on the functions 
and services available to them at the Senate and on the rules and 
regulations of this institution.

Working Collaboratively to Improve Services to the Senate
    The Office of the Sergeant at Arms is committed to overcoming 
organizational barriers to do what is best for the Senate. We work with 
Senate colleagues to provide support for training and procurement, and 
many of our initiatives dovetail with those of other organizations, 
especially the Secretary of the Senate.
    Our Joint Office of Education and Training, which the Sergeant at 
Arms and the Secretary of the Senate jointly sponsor, provides training 
that supports the work being done in all Senate offices, both in 
Washington D.C. and in the states. The training offered includes 
general professional development, Senate-specific information, computer 
training on Senate supported software, support for security and 
emergency preparedness initiatives, and health promotion.
    Just over the past year, the Sergeant at Arms Procurement group 
supported contracting for upgrades to the studios of the Republican 
Conference and the Democratic Technology and Communications Committee. 
It worked with the Secretary of the Senate to procure a new point-of-
sale application for the Senate's gift shop. And it helped the 
Appropriations Committee acquire a new appropriations tracking system.
    In addition, the Procurement group, along with the Technology 
Development group, worked with the Secretary of the Senate to procure a 
product and the related vendor support to upgrade the Senate's external 
Web site, www.senate.gov. The Secretary of the Senate manages the site 
and the Sergeant at Arms provides the infrastructure. Together with the 
Secretary's office, the Office of the Sergeant at Arms redesigned and 
redeveloped an all-new www.senate.gov that integrates a powerful 
content management tool and improves the organization of information on 
the site.

                     BUDGET BUILT ON BUSINESS MODEL

    Mr. Chairman, in constructing our budget request, I instructed 
staff to use the same business model as my predecessor and his 
predecessor. This means that each department conducts a top-down and 
bottom-up review when it constructs its long-range program and budget 
planning activities. All of our department directors and managers look 
for program efficiencies and cost-cutting savings in all mission areas. 
They evaluate and eliminate duplication and redundancy wherever 
practical. We leverage technology to achieve greater efficiencies and 
improve program effectiveness. We believe that the fiscal year 2004 
budget will provide the resources necessary to meet the needs and 
requests of the Senate.

                               CONCLUSION

    Mr. Chairman and Members of the Committee, the Office of the 
Sergeant at Arms is in a unique position: We balance keeping the 
``People's House'' open so that all of America and the world can see 
our great democracy in action against the need to keep the Capitol 
safe. We balance providing efficient, common services against 
delivering individual services and solutions to Senate offices. We work 
to use the taxpayers' money responsibly while providing outstanding 
service and support.
    As our testimony today shows, and their work--particularly over the 
last year and a half--demonstrates, the more than 700 people who work 
in the Office of the Sergeant at Arms are extraordinary public 
servants. On their behalf, my commitment to you and the Senate is that 
the Office of the Sergeant at Arms will provide you the best security, 
service, and support we can.

           Attachment I.--Financial Plan for Fiscal Year 2004

          OFFICE OF THE SERGEANT AT ARMS--UNITED STATES SENATE

                                                EXECUTIVE SUMMARY
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       TOTALS             Variance Fiscal Year
                                                             --------------------------   2004 vs. Fiscal Year
                                                                                                  2003
                                                              Fiscal Year  Fiscal Year -------------------------
                                                              2003 Budget      2004                    Percent
                                                                             Request       Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $43,161      $48,271       $5,110         11.8
    Expenses................................................      $38,013      $47,025       $9,012         23.7
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $81,174      $95,296      $14,122         17.4
Mandated Allowances & Allotments............................      $55,113      $59,731       $4,618          8.4
Capital Investment..........................................      $16,779      $38,019      $21,240        126.6
Nondiscretionary Items......................................       $4,518       $5,194         $676         15.0
                                                             ---------------------------------------------------
      TOTAL.................................................     $157,584     $198,240      $40,656         25.8
                                                             ===================================================
Staffing....................................................          829          846           17          2.1
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services and equipment, we submit a proposed budget 
of $198,240,000, up $40,656,000, or 25.8 percent. The salary budget 
request is $48,271,000, up $5,110,000 or 11.8 percent and the expense 
budget request is $149,969,000, up $35,546,000 or 31.1 percent. The 
staffing request is 846, up 17 FTEs.
    For the second consecutive year, we have increased funds for 
security initiatives. The fiscal year 2004 budget request for security 
is $20,891,000, an increase of $5,912,000 or 39.5 percent over fiscal 
year 2003. The most significant aspects of the total security request 
are the alternate computing facility ($1,154,000 in salaries for 17 
FTEs and $4,096,000 in expenses); enhanced communication services 
($3,900,000); secure mail and package processing protocols ($631,000 in 
salaries 17 FTEs and $3,079,000 in expenses); personnel and operating 
expenses requested for the Office of Security and Emergency 
Preparedness ($987,000 in salaries for 10 FTEs and $2,352,000 in 
expenses); and security upgrades for Member state offices ($2,744,000 
in expenses).
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
  --The General Operations and Maintenance Salaries budget request is 
        $48,271,000, an increase of $5,110,000 or 11.8 percent. The 
        increase includes $1,870,000 to fund a 3.9 percent COLA, 
        $1,095,000 to fund merit increases, $884,000 to add 17 FTEs, 
        and $1,261,000 to fund other adjustments. The additional staff 
        will augment our security team, improve operations, expand 
        services, and meet new requirements for the Senate community.
  --The General Operations and Maintenance Expenses budget request for 
        existing and new services is $47,025,000, an increase of 
        $9,012,000 or 23.7 percent. The increase includes $3,700,000 
        for the higher costs of the Senate's new IT support contract, 
        which was awarded in Spring 2002 and which provides additional 
        resources to install, support and maintain the Senate's PCs; 
        $2,000,000 to screen Senate packages ensuring the safety and 
        security of Senate staff and property; $947,000 for maintenance 
        on data communication networks and systems; $618,000 for 
        maintenance costs on mainframe software; $502,000 for increased 
        management consulting services for security initiatives; 
        $332,000 to procure software and hardware for Internet and 
        Intranet services; $311,000 for maintenance support for the 
        Senate Messaging Infrastructure; and $210,000 for professional 
        services to support financial management projects that will 
        enable us to meet all appropriate audit standards and to 
        enhance budget and contract management systems.
  --The Mandated allowances and allotments budget request is 
        $59,731,000, an increase of $4,618,000 or 8.4 percent. The 
        increase includes $1,934,000 to pay the rent for federal and 
        commercial office space which has been increasing at an annual 
        rate of approximately 8 percent nationwide; $1,313,000 for 
        enhanced telecommunications; $1,111,000 for local and long 
        distance services for Washington D.C. and state offices; 
        $968,000 for Desktop/LAN installation and support; $745,000 for 
        computer equipment for Members, Committees, Officers, and 
        Leadership; and $100,000 for the Appropriations Analysis and 
        Reporting System. These increases are partially offset by a 
        decrease of $1,669,000 for Member mail systems maintenance.
  --The Capital investments budget request is $38,019,000, an increase 
        of $21,240,000 or 126.6 percent. We request $13,500,000 for the 
        acquisition of a new mail processing/warehouse facility that 
        will replace and consolidate our three warehouse locations. Our 
        current facilities do not meet GSA minimum requirements, are 
        functionally obsolete, and our largest location in Alexandria 
        has an expiring lease which the landlord will not renew on a 
        long-term basis. The new support facility will consolidate the 
        Alexandria warehouse and the two smaller warehouses into one 
        space that will meet the Senate's long-term space needs. It 
        will include modern physical security, optimal storage 
        configuration, and material handling equipment. In this 
        facility, we will be able to implement efficient operating 
        procedures and an inventory control system. Importantly, the 
        new facility will meet the all the space needs of the Secretary 
        of the Senate and the Sergeant at Arms. It will include museum 
        quality environmental controls for the Senate Curator and 
        climate control for the Senate Gift Shop, Stationery Store and 
        the Senate Library. The new support facility will include a 
        mail and package screening area for the Senate Post Office. 
        This will enable the Senate to save $750,000 in operating costs 
        annually and improve service by assuming responsibility for the 
        package screening service that is currently performed by a 
        vendor. The Senate Post Office will also upgrade the existing 
        mail screening infrastructure to current standards.
      The budget request includes $7,675,000 to relocate the Recording 
        Studio to the Capitol Visitor Center. The relocation will 
        enable expended coverage of up to 12 simultaneous committee 
        hearings through a central production facility. Concurrent with 
        the relocation, we plan to upgrade the chamber audio system and 
        our television and radio production facilities. As a result of 
        this and the final phase of the Digital Migration Project, the 
        Senate will have a truly state-of-the-art studio for Senate and 
        Committee broadcasts as well as for communication with 
        constituents.
      Facilities will need $1,485,000 to acquire furniture and 
        equipment for core Senate space in the CVC.
      IT Research and Deployment will require $1,500,000 for consulting 
        services and analysis of software for the redesign of the CCMS, 
        which will better enable Senate offices to efficiently 
        communicate with constituents. Increased functionality for the 
        CCMS/Email filtering system will cost $185,000 and list server 
        capabilities will cost $154,000.
      Operations will start several additional projects: Replacement of 
        outdated publishing equipment will cost $745,000; replacement 
        of a 12-year old outgoing mail sorter with updated equipment 
        will cost $500,000; replacing the current data collection and 
        job tracking systems will cost $500,000; and replacing the 
        outdated ID system will cost $150,000. Updating the equipment 
        will enable us to reduce maintenance and postage costs, track 
        job costs, and produce higher quality products. The Post Office 
        will acquire a custom designed mail sorter for $750,000 and a 
        mail delivery truck that will expedite the sorting and delivery 
        of incoming mail for $60,000.
      Network Engineering requires $3,432,000 for upgrades to network 
        switches, firewalls, the Network Management System, and the 
        state office wide area network.
  --Nondiscretionary items fiscal year 2004 budget request is 
        $5,194,000, an increase of $676,000 or 15.0 percent compared to 
        fiscal year 2003. The request consists of three projects that 
        support the Secretary of the Senate: contract maintenance for 
        the Financial Management Information System (FMIS), $2,596,000; 
        enhancements to the Legislative Information System (LIS), 
        $1,968,000; and requirements definition for enhancements to the 
        Senate Payroll System, $630,000.
     Attachment II.--Fiscal Year 2004 Budget Request by Department
    The following is a summary of the SAA's fiscal year 2004 budget 
request on an organizational basis.

                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS           Variance Fiscal Year 2004
                                                            --------------------------    vs. Fiscal Year 2003
                         Department                                       Fiscal Year --------------------------
                                                             Fiscal Year      2004                     Percent
                                                             2003 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
Capitol Division...........................................      $10,942      $12,351       $1,409          12.9
Operations.................................................      $28,584      $55,618      $27,034          94.6
Technology Development.....................................      $29,578      $36,667       $7,089          24.0
Senate Messaging Infrastructure Project....................       $5,165         $945      ($4,220)         81.7
IT Support Services........................................      $49,915      $55,269       $5,354          10.7
Office Support.............................................      $26,502      $29,330       $2,828          10.7
Staff Offices..............................................       $6,898       $8,060       $1,162          16.8
                                                            ----------------------------------------------------
      TOTAL................................................     $157,584     $198,240      $40,656          25.8
----------------------------------------------------------------------------------------------------------------

    Each department's budget is presented and analyzed in detail 
beginning on the next page.

                                                CAPITOL DIVISION
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       TOTALS             Variance Fiscal Year
                                                             --------------------------   2004 vs. Fiscal Year
                                                                                                  2003
                      Capitol Division                        Fiscal Year  Fiscal Year -------------------------
                                                              2003 Budget      2004                    Percent
                                                                             Request       Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................       $5,783       $6,689         $906         15.7
    Expenses................................................       $1,915       $2,418         $503         26.3
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................       $7,698       $9,107       $1,409         18.3
Mandated Allowances & Allotments............................       $2,744       $2,744           $0  ...........
Capital Investment..........................................         $500         $500           $0  ...........
Nondiscretionary Items......................................           $0           $0           $0  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $10,942      $12,351       $1,409         12.9
                                                             ===================================================
Staffing....................................................          135          137            2          1.5
----------------------------------------------------------------------------------------------------------------
The Capitol Division consists of the Executive Office, Media Galleries and the Office of Security and Emergency
  Preparedness.

    Operations and maintenance salaries increase $906,000, or 15.7 
percent, to $6,689,000. This increase will fund the addition of two 
FTEs, $170,000; an expected 3.9 percent COLA, $416,000; merit funding, 
$115,000; and other adjustments, $205,000. The Office of Security and 
Emergency Preparedness requires two FTEs to direct, develop and monitor 
the processes and procedures needed to ensure security on Capitol Hill 
and to work on the Continuation of Operations Plan (COOP).
    Operations and maintenance expenses increase $503,000, or 26.3 
percent, to $2,418,000 primarily for increased management consulting 
services for security initiatives.
    The allowances and allotments budget request for state office 
security initiatives remains flat for fiscal year 2004.
    The capital investments budget request for COOP related purposes 
remains flat for fiscal year 2004.

                                                   OPERATIONS
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       TOTALS             Variance Fiscal Year
                                                             --------------------------   2004 vs. Fiscal Year
                                                                                                  2003
                         Operations                           Fiscal Year  Fiscal Year -------------------------
                                                              2003 Budget      2004                    Percent
                                                                             Request       Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $15,658      $17,209       $1,551          9.9
    Expenses................................................       $6,629       $8,893       $2,264         34.2
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $22,287      $26,102       $3,815         17.1
Mandated Allowances & Allotments............................           $0           $0           $0  ...........
Capital Investment..........................................       $6,297      $29,516      $23,219        368.7
Nondiscretionary Items......................................           $0           $0           $0  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $28,584      $55,618      $27,034         94.6
                                                             ===================================================
Staffing....................................................          353          363           10          2.8
----------------------------------------------------------------------------------------------------------------
The Operations Division consists of the Central Operations Group: Printing, Graphics and Direct Mail, Parking
  Office, ID Office, Photo Studio, and Hair Care Services; Recording Studio, Post Office, and Facilities.

    Operations and maintenance salaries will increase by $1,551,000 or 
9.9 percent to $17,209,000. This increase is due to the addition of ten 
FTEs, $400,000; budgeting for an expected COLA, $609,000; merit 
funding, $408,000; and other adjustments, $134,000. Central Operations 
is increasing its staff by four FTEs. Three FTEs will be required to 
properly staff the warehouse facility and one additional FTE is needed 
to provide administrative support. The Post Office is requesting four 
FTEs to ensure that packages and mail are accurately tested, sorted and 
delivered in a timely manner and two FTEs to provide administrative 
support to the Superintendent of Package Delivery and Special Services.
    Operations and maintenance expenses budget request is $8,893,000, 
an increase of $2,264,000 or 34.2 percent compared to fiscal year 2003. 
This increase is due to costs to screen Senate packages by a contractor 
providing more secure package processing, $2,000,000; uniform parking 
lot and street signage, $100,000; and to update furniture inventory, 
$100,000.
    The capital investment budget request is $29,516,000, an increase 
of $23,219,000 or 368.7 percent compared to fiscal year 2003.
    We request $13,500,000 for the acquisition of a new warehouse/mail 
processing facility that will replace and consolidate our three 
warehouse locations. Our current facilities do not meet GSA minimum 
requirements, are functionally obsolete, and our largest location in 
Alexandria has an expiring lease which the landlord will not renew on a 
long-term basis. The new support facility will consolidate the 
Alexandria warehouse and the two smaller warehouses into one space that 
will meet the Senate's long-term space needs. It will include modern 
physical security, optimal storage configuration, and material handling 
equipment. In this facility, we will be able to implement efficient 
operating procedures and an inventory control system. Importantly, the 
new facility will meet all the space needs of the Secretary of the 
Senate and the Sergeant at Arms. It will include museum quality 
environmental controls for the Senate Curator and climate control for 
the Senate Gift Shop, Stationery Store and the Senate Library. The new 
support facility will include a mail and package screening area for the 
Senate Post Office. This will enable the Senate to save $750,000 in 
operating costs annually and improve service by assuming responsibility 
for the package screening service that is currently performed by a 
vendor. The Senate Post Office will also upgrade the existing mail 
screening infrastructure to current standards.
    The budget request also includes $7,675,000 to relocate the 
Recording Studio to the Capitol Visitor Center. The relocation will 
enable expended coverage of up to 12 simultaneous committee hearings 
through a central production facility. Concurrent with the relocation, 
we plan to upgrade the chamber audio system and our television and 
radio production facilities. As a result of this and the final phase of 
the Digital Migration Project, the Senate will have a truly state-of-
the-art studio for Senate and Committee broadcasts as well as for 
communication with constituents.
    Facilities will begin to acquire furniture and equipment for core 
Senate space in the CVC, $1,485,000.
    Several additional projects will commence in Operations: $745,000 
to replace outdated publishing equipment; $500,000 to replace a 12-
year-old outgoing mail sorter with update equipment; $500,000 to 
replace existing data collection and job tracking systems; and $150,000 
to replace the outdated ID system. The updated equipment will enable us 
to reduce maintenance and postage costs, allow job cost tracking and 
produce higher quality products. The Post Office will acquire a custom 
designed mail sorter to provide better accuracy, expedited sorting, and 
a safer working environment and a mail delivery truck which will 
expedite the delivery of incoming mail, $750,000 and $60,000, 
respectively.

                                         TECHNOLOGY DEVELOPMENT SERVICES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS           Variance Fiscal Year 2004
                                                            --------------------------    vs. Fiscal Year 2003
              Technology Development Services                             Fiscal Year --------------------------
                                                             Fiscal Year      2004                     Percent
                                                             2003 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................       $8,768       $9,809       $1,041          11.9
    Expenses...............................................      $11,934      $17,420       $5,486          46.0
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $20,702      $27,229       $6,527          31.5
Mandated Allowances & Allotments...........................           $0           $0           $0   ...........
Capital Investment.........................................       $4,358       $4,244        ($114)          2.6
Nondiscretionary Items.....................................       $4,518       $5,194         $676          15.0
                                                            ----------------------------------------------------
      TOTAL................................................      $29,578      $36,667       $7,089          24.0
                                                            ====================================================
Staffing...................................................          125          126            1           0.8
----------------------------------------------------------------------------------------------------------------
The Technology Development Services Department consists of the Systems Development Services, Network Engineering
  and Management, Enterprise IT Systems, Internet/Intranet and Research Services, and IT Security.

    Operations and maintenance salaries will increase $1,041,000, or 
11.9 percent, to $9,809,000. This increase is due to the addition of 
one FTE, $74,000; funding for an expected COLA, $352,000; merit 
funding, $234,000; and other adjustments, $382,000. Systems Development 
is adding two FTEs for a Senior Information Technology Specialist to 
support and maintain new and existing enterprise servers and a Senior 
Software Specialist to assist with the Legislative Information System. 
Partially offsetting this increase is a decrease of one FTE in Network 
Engineering.
    Operations and maintenance expense budget request is $17,420,000, 
an increase of $5,486,000 or 46.0 percent compared to fiscal year 2003. 
This increase is due to funding the operational support for the Senate 
Messaging Infrastructure Project, $3,400,000; maintenance on data 
communication networks and systems, $947,000; maintenance costs on 
mainframe software, $618,000; delivery of an expanded Sergeant at Arms 
organization intranet portal, $300,000; and increased maintenance costs 
for voice equipment, $298,000.
    Capital investments budget request is $4,244,000, a decrease of 
$114,000 or 2.6 percent compared to fiscal year 2003.
    Network Engineering requires $3,432,000 for upgrades to network 
switches, firewalls, the Network Management System, and the state 
office wide area network.
    Nondiscretionary items budget request is $5,194,000, an increase of 
$676,000 or 15.0 percent compared to fiscal year 2003. The request 
consists of three projects that support the Secretary of the Senate: 
contract maintenance for the Financial Management Information System 
(FMIS), $2,596,000; enhancements to the Legislative Information System 
(LIS), $1,968,000; and requirements definition for enhancements to the 
Senate Payroll System, $630,000.

                                     SENATE MESSAGING INFRASTRUCTURE PROJECT
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS           Variance Fiscal Year 2004
                                                            --------------------------    vs. Fiscal Year 2003
                        SMI Project                                       Fiscal Year --------------------------
                                                             Fiscal Year      2004                     Percent
                                                             2003 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................         $423         $441          $18           4.3
    Expenses...............................................       $3,593         $504      ($3,089)         86.0
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............       $4,016         $945      ($3,071)         76.5
Mandated Allowances & Allotments...........................           $0           $0           $0   ...........
Capital Investment.........................................       $1,149           $0      ($1,149)        100.0
Nondiscretionary Items.....................................           $0           $0           $0   ...........
                                                            ----------------------------------------------------
      TOTAL................................................       $5,165         $945      ($4,220)         81.7
                                                            ====================================================
Staffing...................................................            5            5            0   ...........
----------------------------------------------------------------------------------------------------------------

    Operations and maintenance salaries will increase $18,000, or 4.3 
percent, to $441,000. This increase is due to funding for an expected 
COLA, $16,000, merit funding, $10,000, and other adjustments, ($8,000).
    Operations and maintenance expenses decrease $3,089,000, or 86.0 
percent, to $504,000. The SMI Project is expected to move into the 
maintenance phase by fiscal year 2004. Technology Development Services 
is funding maintenance for SMI beginning in fiscal year 2004. The SMI 
project team will be redeployed to address other initiatives for the 
Sergeant at Arms. An organizational structure and charter will be 
developed. The project is requesting $504,000 in operations and 
maintenance funding, mainly for consulting services supporting major 
initiatives.
    Capital investments decrease $1,149,000, or 100.0 percent due to 
the completion of the SMI project.

                                               IT SUPPORT SERVICES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS           Variance Fiscal Year 2004
                                                            --------------------------    vs. Fiscal Year 2003
                    IT Support Services                                   Fiscal Year --------------------------
                                                             Fiscal Year      2004                     Percent
                                                             2003 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................       $5,694       $6,274         $580          10.2
    Expenses...............................................      $12,446      $15,547       $3,101          24.9
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $18,140      $21,821       $3,681          20.3
Mandated Allowances & Allotments...........................      $27,750      $29,689       $1,939           7.0
Capital Investment.........................................       $4,025       $3,759        ($266)          6.6
Nondiscretionary Items.....................................           $0           $0           $0   ...........
                                                            ----------------------------------------------------
      TOTAL................................................      $49,915      $55,269       $5,354          10.7
                                                            ====================================================
Staffing...................................................          101          102            1           1.0
----------------------------------------------------------------------------------------------------------------
The IT Support Services Department consists of the Desktop/LAN Support, IT/Telecom Support, IT Research and
  Deployment, and Equipment Services branches.

    Operations and maintenance salaries increase $580,000, or 10.2 
percent, to $6,274,000. This increase is due to the addition of one 
FTE, $75,000; budgeting for an expected COLA, $223,000; merit funding, 
$153,000; and other adjustments, $130,000. IT Research and Deployment 
is adding one FTE as a senior information technology specialist to 
support the new CCMS applications.
    Operations and maintenance expense budget request is $15,547,000 in 
fiscal year 2004, an increase of $3,101,000, or 24.9 percent compared 
to fiscal year 2003. This increase is primarily due to an increase in 
the cost of a new IT contract awarded in Spring 2002, $3,700,000, which 
provides additional resources to install, support, and maintain the 
Senate's PC's.
    Allowances and allotments budget request is $29,689,000 in fiscal 
year 2004, an increase of $1,939,000 or 7.0 percent compared to fiscal 
year 2003. This budget supports voice and data communications for 
Washington D.C. and state offices, $17,941,000; maintenance and 
procurement of Members' constituent mail systems, $4,255,000; 
procurement and maintenance of office equipment for Members' Washington 
D.C. and state offices, $3,475,000; Desktop/LAN installation and 
specialized support, $3,418,000; and the Appropriations Analysis and 
Reporting System, $400,000. The increase in Telecom Services costs is 
attributed to major new initiatives that include upgrading older 
telephone systems in state offices, improving service over wide-area 
network to provide multimedia capabilities and to take advantage of new 
technology and continued efforts to ensure critical telecommunications 
can be maintained under any circumstance.
    Capital investments budget request is $3,759,000, a decrease of 
$266,000, or 6.6 percent compared to fiscal year 2003.
    IT Research and Deployment will require $1,500,000 for consulting 
services and analysis of software for the redesign of the CCMS which 
will better enable Senate offices to efficiently communicate with 
constituents. Increased functionality will be added to the CCMS/Email 
filtering system and list server capabilities will be added, $185,000 
and $154,000 respectively.
    The Wireless PDA project will commence with enhancements to 
BlackBerry type systems, $300,000. The Public Key Infrastructure 
Project will commence, $250,000, and will provide an encryption and 
authentication system to secure outbound electronic messages to 
constituents.

                                             OFFICE SUPPORT SERVICES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                       TOTALS             Variance Fiscal Year
                                                             --------------------------   2004 vs. Fiscal Year
                                                                                                  2003
                   Office Support Services                    Fiscal Year  Fiscal Year -------------------------
                                                              2003 Budget      2004                    Percent
                                                                             Request       Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................       $1,846       $1,995         $149          8.1
    Expenses................................................          $37          $37           $0            0
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................       $1,883       $2,032         $149          7.9
Mandated Allowances & Allotments............................      $24,619      $27,298       $2,679         10.9
Capital Investment..........................................           $0           $0           $0  ...........
Nondiscretionary Items......................................           $0           $0           $0  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $26,502      $29,330       $2,828         10.7
                                                             ===================================================
Staffing....................................................           28           28            0  ...........
----------------------------------------------------------------------------------------------------------------
The Office Support Services Department consists of the Customer Support, Help and IT Request Processing, and
  State Office Liaison branches.

    Operations and maintenance salaries will increase $149,000, or 8.1 
percent, to $1,995,000. This increase will fund an expected COLA, 
$70,000, merit funding, $47,000, and other adjustments, $31,000.
    Operations and maintenance expenses will remain flat at $37,000.
    The allowances and allotments budget request increases $2,679,000 
or 10.9 percent to $27,298,000. Factors contributing to this increase 
are projected increases in rent for federal and commercial office 
space, $1,934,000 and funding for computer allocations, $745,000.

                                                  STAFF OFFICES
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                      TOTALS           Variance Fiscal Year 2004
                                                            --------------------------    vs. Fiscal Year 2003
                       Staff Offices                                      Fiscal Year --------------------------
                                                             Fiscal Year      2004                     Percent
                                                             2003 Budget    Request       Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................       $4,989       $5,854         $865          17.3
    Expenses...............................................       $1,459       $2,206         $747          51.2
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............       $6,448       $8,060       $1,612          25.0
Mandated Allowances & Allotments...........................           $0           $0           $0   ...........
Capital Investment.........................................         $450           $0        ($450)  ...........
Nondiscretionary Items.....................................           $0           $0           $0   ...........
                                                            ----------------------------------------------------
      TOTAL................................................       $6,898       $8,060       $1,162          16.8
                                                            ====================================================
Staffing...................................................           82           85            3           3.7
----------------------------------------------------------------------------------------------------------------
The Staff Offices Division consists of Education and Training, Human Resources, Administrative Services,
  Financial Management, Special Projects, and Information Technology.

    Operations and maintenance salaries increase $865,000, or 17.3 
percent, to $5,854,000. This increase is due to the addition of three 
FTEs, $166,000; budgeting for an expected COLA, $185,000; merit 
funding, $128,000; and other adjustments, $387,000. Financial 
Management will be adding two FTEs to support the audited financial 
statement project and to support contract administration. 
Administrative Services is adding one FTE to provide administrative 
support to the Office of Security and Emergency Preparedness and for 
Special Projects.
    Operations and maintenance expenses increase $747,000, or 51.2 
percent, to $2,206,000. Information Technology increases $280,000 for 
management consultants. Financial Management increases $210,000 for the 
audited financial statement project, contract management support, 
budget system enhancements, and software maintenance. Special Projects 
increases $100,000 for miscellaneous expenses. Human Resources 
increases $75,000 for physical abilities and medical guidelines updates 
and labor relations training for management and supervisors. 
Administrative Services increases $25,000 for the fare subsidy increase 
and the installation and monthly service fees for TV cabling in the 
Conference Center.
    All capital investments will be completed by fiscal year 2004.

    Senator Campbell. You have been here 7 weeks. Okay. We will 
give you 1 more week to figure out a plan to protect all 
Americans who visit the Capitol. Would that be enough time?
    Mr. Pickle. We will master that, sir.
    Senator Campbell. You will master it.
    Well, I say that somewhat in jest, but I understand that 
the demands of your job have risen considerably since the last 
Sergeant at Arms was here. It is not going to be easy, and the 
committee will certainly give you all the support and help that 
we can.

                           BUDGET PRIORITIES

    In the categories of your budget, you have significant 
increases, but the subcommittee allocation might not be up to 
the task. More than likely, it is going to be below what is 
going to be proposed for the Legislative Branch agencies. So we 
may have to make some reductions.
    Do you have a priority list, things that you literally have 
to have, and those things that could be put off?
    Mr. Pickle. I think we do, but I think rather than give you 
a quick answer now, I think we really ought to look at this--
there are some things that are impacted by the Capitol Visitor 
Center's complete date that may give us some breathing room 
here, and funding could be made available later, and that's 
only come to light within the last week or so, but I think we 
certainly would prioritize, if you so directed us to.
    Senator Campbell. Okay. Well, I would like to, and I am 
sure Senator Durbin would also like to know more about it, if 
you do prioritize.
    Mr. Pickle. Yes.

                      ALTERNATE COMPUTING FACILITY

    Senator Campbell. What is the status of the alternate 
computing facility that was funded in the fiscal year 2002 
supplemental?
    Mr. Pickle. We had a walk-through this past week. We should 
be taking occupancy, along with the House and the Library of 
Congress, sometime in May. And we hope to start the 
installation of telecommunications equipment and data systems 
by June or July. It is a very important aspect of security for 
this body.
    You have to wonder--being new here, you have to wonder why 
this was not done before, and maybe 9/11 and October 15, 2001, 
shed some light on the vulnerability. It was a vulnerability. 
It is no longer a vulnerability.

                            MAIL PROCESSING

    Senator Campbell. You mentioned the mail processing system. 
Is that system going to be equipped to detect traces of things 
like Anthrax, and so on?
    Mr. Pickle. All mail that comes to the Capitol is 
irradiated by the Post Office. When we take custody or receive 
that mail, we do additional testing, but I would be somewhat 
reluctant to, in an open forum like this----
    Senator Campbell. Yes.
    Mr. Pickle [continuing]. Talk about----
    Senator Campbell. I do not want you to. That is good. All 
right.

                               WAREHOUSE

    The warehouse is the largest item in your budget, $13.5 
million for that warehouse. Why is that needed, and when would 
it be operational? Have you identified the site, or got the 
plans done, or anything of that nature?
    Mr. Pickle. We do not have a firm site. The dilemma that we 
face, and the Senate, in particular, faces, all the offices 
here, is: We have three very separate and distinct locations, 
one of which is part of the Russell Building. None of these are 
very suitable as warehouses. None have climate control or 
environmental controls. They are not up to GSA standards, which 
are fairly strict.
    We also pay leases. We are paying for these. At one point, 
we were in jeopardy of losing the largest warehouse we have, 
which is down in Alexandria.
    What we are attempting to do is consolidate in one 
location, and realize a cost savings in the outyears for the 
Senate, and also do a better job of providing for service to 
the Senate.
    Senator Campbell. All right. As I mentioned before, what we 
are going to do, since we have a 10:15 vote, is take turns 
chairing this while one votes, and the other ones stay here.
    But if I can cut in, did you have an opening statement, 
Senator Durbin?
    Senator Durbin. I will just submit it for the record.
    Senator Campbell. Okay. We will put that in the record.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Mr. Chairman, thank you for scheduling today's budget 
oversight hearing on the Senate Sergeant at Arms and the U.S. 
Capitol Police Board.
    First of all, I want to welcome you, Mr. Pickle, and 
congratulate you on your appointment as the 37th Sergeant at 
Arms. It is certainly an honor for us to have someone with your 
background serving us here in the Senate. In this time of 
heightened security enhancements and measures, your knowledge 
and expertise are truly appreciated.
    I am also delighted to see Mr. Keith Kennedy, Deputy 
Sergeant at Arms back here in the Senate. You served as Staff 
Director of the Senate Appropriations Committee under Senator 
Hatfield, and did a wonderful job. It is a pleasure to have you 
back in the Senate and here with us today. I know that you and 
Mr. Pickle will make a great team.
    I also want to welcome Chief Gainer, a native of my home 
state of Illinois. It is good to have you here representing our 
Capitol Police force.
    The excellent work of your predecessors is very apparent 
today in the Senate. When we met in this subcommittee exactly 
one year ago today, the talk of anthrax, major mail delays and 
health risks associated with irradiated mail dominated a great 
deal of our hearing. Today we don't have to deal with any of 
those subjects. This is a tremendous relief.
    The subject of security around the Capitol, however, is 
now, more than ever, a serious one. You both have your work cut 
out for you in this difficult time of international unrest. I 
am glad to see the plans that you have outlined to assure that 
our security needs are being addressed.
    I want to congratulate the Capitol Police on its 
recognition by the Commission on Accreditation for Law 
Enforcement Agencies. This is a well-deserved and highly-
respected honor, and we who are fortunate enough to be under 
your watchful eye, are thrilled for you.
    I am glad to see the aggressive increase in officers and 
civilians at the Capitol Police. I understand that the staffing 
study you are conducting is nearly complete. I look forward to 
receiving the results of this study.

                        SENATE MESSAGING SYSTEM

    Senator Campbell. Let me ask you one other thing on the 
Senate messaging system. There are 28 officers who have yet to 
be migrated over to the new E-mail system, owing to production 
limitations. What are those product limitations, and are there 
future problems that we might expect with the Senate messaging 
system? How much have you spent to date on that project?
    Mr. Pickle. To date, we have spent $26 million on the SMI 
project. There have been problems.
    Senator Campbell. What kind of problems?
    Mr. Pickle. Well, I think that the Senate poses a very 
unique challenge, even to the quality of the vendors that we 
are using, and we are using two of the most recognizable names 
in the country, and certainly two of the most technologically-
advanced companies in the country.
    We do pose some unique challenges to the Senate. When you 
view the Senate as being a large corporation with--when you 
look at 138 offices here in Washington, and approximately 440 
or so spread around the country, and you are supporting over 
8,000 PC desktops, not to mention laptops, and you have some 
very unique needs at each committee and each member office, 
even the finest technology companies find this a unique 
challenge.
    There are architecture problems, and there are software 
problems that are being addressed. Our vendors are working 
around the clock with us, and they have been here. They have 
been very supportive, and we are relying on their expertise to 
get us through this.
    We hope to have the migrations complete by the first part 
of June. That is our goal. It is working very well. There have 
been bugs, and you are going to have bugs.
    Senator Campbell. Are you going to need additional funds to 
ensure its operation?
    Mr. Pickle. It is premature at this time to say. I believe 
this: We will need maintenance funds to maintain it, but the 
final design, and the final architecture has not been arrived 
at yet. We want a system that is flawless, and we are not 
flawless yet.
    Senator Campbell. Okay. Senator Durbin, did you have any 
questions?
    Senator Durbin. I only have one question. I would like to 
apologize to Mr. Pickle that we did not have a chance to get 
together yesterday, but I certainly look forward to sitting 
down with you.

                            MAIL PROCESSING

    Are you keeping track, are records being kept of the mail 
processing for the Senate, to give us any indication as to 
whether or not we are back up to speed as to where we were 
before the Anthrax problem?
    Mr. Pickle. Yes, we are. We are not where we were before in 
that a letter earmarked for the Senate today will take 
approximately 6 days, on average, to arrive here, from postmark 
to delivery. Now, of course, that is probably not faster than 
it was prior to October 15th, but we are back up as far as 
processing. The mail handling is safe, it is efficient, and we 
are actually saving money over where we were right after 
October 15th.
    I want to, if I could just for a minute, give credit to the 
Sergeant at Arms Office for something that people call Yankee 
ingenuity. When we looked at that time on how we could get 
packaging, or packages and cargo delivered here in a safe 
manner, we had some very large cost estimates from vendors, in 
excess of $1.5 million annually. The Post Office and the 
operations folks here, led by Rick Edwards and Harry Green, our 
Postmaster, came up with a wonderful idea at a cost of $30,000, 
which is more state of the art and more efficient than the 
vendor was able to provide for us.
    So we are making progress, but the fact that we have so 
many processes and procedures to go through to ensure safe mail 
delivery are going to certainly slow down mail delivery.
    Senator Durbin. I have two other questions. Is our approach 
to dealing with mail different than the House's approach?
    Mr. Pickle. Yes. Very much so. The House is much more 
reliant on vendors at a much higher cost.
    Senator Durbin. Can you give us a comparative cost on our 
mail system, as opposed to their mail system?
    Mr. Pickle. I would have to come back to you later with 
that, Senator. I would be happy to.
    Senator Durbin. They have contracted out to a firm to 
handle this.
    Mr. Pickle. They use a vendor for most of theirs, and they 
do have--of course, we have a different amount of the mail 
volume than they have, but their process, I do know from 
dealing with them and talking with them, is much more expensive 
than ours.
    Senator Durbin. What kind of complaints do you receive from 
Senate offices from the workers who are opening mail and 
processing it, as to health complaints, or concerns about 
fumes, or reaction, or that sort of thing?
    Mr. Pickle. There have been, I believe I am correct, about 
200-plus complaints received from Senate staff, who complained 
of breathing problems, rashes, that type of complaint, smelling 
fumes. We brought in a unit of the CDC, the National Institute 
of Safety and Health, who did a very comprehensive study in 
conjunction with the Attending Physician's Office. We found a 
couple of things. There are, as they say, aromatic, hydrocarbon 
fumes being given off by this mail that has been irradiated. 
However, the levels are such that they do not pose a health 
hazard, but be that as it may, there are still a small 
percentage of people who are complaining and believe that they 
do have some illness from this, and the Attending Physician is 
monitoring this very carefully.
    Senator Durbin. Okay. Thank you.
    Mr. Pickle. Thank you.
    Senator Durbin. Thanks, Mr. Chairman.

                           STAFFING INCREASES

    Senator Campbell. All right. Just maybe one more before we 
are done. Your budget includes 17 additional staff over fiscal 
year 2003. As I understand it, you have not reached the 
approved 2003 level of 829; therefore, the real increase of 
number of people that you will be hiring will be 49. What are 
they going to be working in, if you can say that in the public 
forum?
    Mr. Pickle. Well, first of all, there are going to be--out 
of the 17 that we have asked for this year, 6 are earmarked 
towards security functions. Some of these will be working in 
mail processing and mail handling. The others will be working 
in the area of technology and central operations, to take on 
some of the additional responsibilities that we have taken on 
since September and October of 2001.
    We have not filled those positions, as you indicated, which 
we were given last year. There are a number of reasons for 
that. First of all, my predecessor was very fiscally 
responsible. He did not want to go out front and start hiring 
people, unless he knew that we had the funding for it, and I 
concur wholeheartedly. We have approximately 73 postings out 
there now, and we are not just hiring people who apply. We are 
looking for the best people to work here. We are doing it very 
aggressively, but we are doing it in a very deliberate fashion.
    Senator Campbell. I see. Okay. Before Sergeant at Arms 
Pickle is done, Senator, did you have any questions or 
comments?

                         COMMUNICATION DEVICES

    Senator Bennett. Did you talk about the Blackberries and 
the beepers being----
    Senator Campbell. No.
    Senator Bennett. Let us get to the real important stuff.
    Senator Campbell. I had hoped I got away from that one. Do 
you want to do that?
    Senator Bennett. Okay. I feel like I am wearing a 
bandolier, with all kinds of grenades hanging on it, with----
    Senator Campbell. Cell phone.
    Senator Bennett [continuing]. And a cell phone, and a 
Blackberry, and so on.
    I have stopped carrying the beeper now, because the 
Blackberry will tell me when there is a vote. Are we moving 
forward on anything to----
    Mr. Pickle. We are, Mr. Chairman. I do not want to sound 
like a broken record.
    Senator Bennett. I am no longer the chairman.
    Mr. Pickle. I am sorry. I do not want to----
    Senator Bennett. There are days when I saw the allocation 
to the Ag Subcommittee that I wished for the chairmanship of 
the Legislative Branch, because we got whacked a whole lot 
worse than this subcommittee.
    Mr. Pickle. I do not want to sound like a broken record on 
this response, but, yes, we are looking. The Blackberry, at the 
time it was selected, really was the best device out there. 
More recently, there are several competitors who offer a 
product, several products, which we are looking at now.
    We agree that to have two, three, four instruments on your 
body is just not very productive, and it is a problem, but 
trying to eliminate that single point of failure, and get it 
down to one device, or two at the most, is what our goal is.
    Senator Bennett. Thank you. It is a very serious, major 
national problem.
    Mr. Pickle. Yes.
    Senator Bennett. International.

                         EMERGENCY PREPAREDNESS

    Senator Campbell. Okay. Without giving away any information 
that you should not in a public forum, how do you feel about 
our readiness for the Capitol complex, compared to 1 year, 1\1/
2\ years ago?
    Mr. Pickle. I think there is no comparison. Post-9/11 and 
post-10/15/2001, Al Lenhardt, then Sergeant at Arms, and his 
staff, did an outstanding job, along with the police 
department, of preparing the Capitol for preventing future 
attacks.
    There are, as you say, a large number of highly classified 
projects ongoing. There are many things that we are doing which 
are visible and not classified, such as posting barriers, 
badging, mail processing, mail handling, but there are many 
things that we are doing which are not visible, and I feel that 
the posture of the police department is at the highest it has 
ever been, the alert is high, and we are doing all we can to 
support them.
    Senator Campbell. Well, I know there have been a lot of 
changes, and I still remember 9/11, when a policeman came 
running into our office and told us we had to evacuate, but 
that there was no evacuation plan, so I know we have come a 
long way. Thank you.
    If there are any further questions, we will put those in 
writing to you, if any other members have a question.

                          CAPITOL POLICE BOARD

STATEMENT OF WILLIAM H. PICKLE, CHAIRMAN, CAPITOL 
            POLICE BOARD
ACCOMPANIED BY:
        TERRANCE GAINER, CHIEF, U.S. CAPITOL POLICE
        WILSON LIVINGOOD, HOUSE SERGEANT AT ARMS
        ALAN HANTMAN, ARCHITECT OF THE CAPITOL

          OPENING STATEMENT OF SENATOR BEN NIGHTHORSE CAMPBELL

    Senator Campbell. We will go on and take the testimony of 
Chief Gainer now, if you could come to the table there.
    Did you not have an additional statement for this, Mr. 
Pickle?

                     STATEMENT OF WILLIAM H. PICKLE

    Mr. Pickle. I was going to, but realizing that time is 
short, I am going to dispense with that, and just introduce, if 
I can, the other members of the Police Board.
    Senator Campbell. Okay.
    Did Mr. Livingood also have a statement, too?
    Mr. Pickle. No. It will just be myself very briefly, and 
Chief Gainer.
    To my left is Bill Livingood, House Sergeant at Arms, Chief 
Terry Gainer, who was sworn in last June, and to my right, Alan 
Hantman, Architect of the Capitol. This board is very committed 
to doing the right thing for the Congress. We are very 
committed to supporting this police department in any way we 
can. We think they have done an outstanding job, and rather 
than take up time telling you what I think, I am going to turn 
it over to Chief Gainer, sir.
    Senator Campbell. Chief, welcome to the committee.

                 STATEMENT OF CHIEF TERRANCE W. GAINER

    Chief Gainer. Thank you, Mr. Chairman and members of the 
subcommittee. I am honored to appear before you today to 
discuss the United States Capitol Police fiscal year 2004 
budget request.
    Mr. Chairman, I would first like to thank the committee for 
their continued support of the Capitol Police. The pay and 
other incentives received in the fiscal year 2003 appropriation 
are a significant advantage in recruiting, hiring, and 
retaining good men and women in officer positions, as well as 
attracting highly qualified civilian professionals for key 
support roles and functions.
    We would also like to thank the committee for support of 
the acquisition of the new offsite delivery facility, and the 
new headquarters building, and we have been working with the 
Architect of the Capitol to develop our requirements for the 
new facilities, and look forward to the day when we can occupy 
facilities that are capable of meeting our expanded needs.
    I am pleased and proud to announce a recent and important 
accomplishment that the men and women of the Capitol Police 
have achieved. The Capitol Police is the first full-service 
federal law enforcement agency to become fully accredited by 
the Commission on the Accreditation for Law Enforcement 
Agencies, otherwise known as CALEA.
    The Capitol Police voluntarily subjected themselves, and 
were accredited after a lengthy process by CALEA. This 
accreditation by CALEA is a means of matching and scoring the 
Department against cutting edge, professionally recognized 
standards of law enforcement excellence. I congratulate the men 
and women of the Capitol Police for this outstanding 
accomplishment, and their dedication to the mission of this 
organization, and the wisdom of the previous chiefs to engage 
in this process.
    The United States Capitol Police, as you know, is in a 
period of transition. Due to the ever-increasing and underlying 
threat to Congress, the role of the Capitol Police has expanded 
to ensuring the continuity of the Legislative Branch of 
Government, and the national legislative process, as well as 
extending a sense of safety and protection to all who work in 
and visit the Capitol complex. We work very closely with the 
Sergeant at Arms, and with the leadership of both the House and 
Senate, to ensure that the security of the Congress is 
appropriately managed.
    The ability of the United States Congress to meet its 
constitutional responsibilities is very much intertwined with 
the ability of the Capitol Police to meet its mission. The 
Capitol Police are ready and willing to meet the challenges a 
changing environment poses to the structure of our operations.
    Our budget request, as you have noted, is approximately 
$290.5 million, which as a result of the supplemental, can be 
reduced to $275.5 million. It represents a reasonable, 
necessary, and balanced plan to directly address the threats of 
today, and proposes the utilization of resources to ensure the 
protection of Congress, its members, staff, visitors, and the 
legislative process in the future.
    Our proposal is robust. The implementation of the United 
States Capitol Police strategic plan, which this budget 
supports, will ensure the uninterrupted continuation of the 
Congress. This committee has begun funding, and the Capitol 
Police are engaging in an aggressive increase, in both police 
officers and civilian support personnel.
    This increase in staff is the largest and most important 
part of our budget, and hence, our plans. The attainment of our 
goals depends, in part, on having the right people in the right 
strength and numbers, organized into an effective and flexible 
blend of capabilities and skills. In order to meet this goal, 
and provide a measured approach to adequately staff the 
Department to meet the threats and challenges we face in 
security operations, we have undertaken and are in the process 
of finalizing a comprehensive staffing study of all areas 
within the Department. This study, which is tied to our 
strategic plan, represents our professional recommendations for 
adequately staffing the Capitol Police, with the right mix of 
sworn and civilian personnel, to meet the needs of the current 
threat environment.
    We will provide the committee copies of the study, with the 
appropriate staff briefings, upon its approval and review by 
the Capitol Police Board. The Capitol Police, as of today, has 
1,393 sworn personnel, and we are anticipating concluding 
fiscal year 2003 with 1,569, and a budget request to finish 
fiscal year 2004 with 1,833 sworn officers.
    We also have 227 civilians, with the goal to finish fiscal 
year 2004, with 573 onboard professionals. This substantive and 
substantial increase in the staff is the backbone of the plans 
to fully staff all the necessary law enforcement areas around 
the Capitol complex, and to be able to provide sufficient 
intelligence capabilities, robust physical security, and 
response functions, as well as adequate administrative and 
logistic support services within the Police Department.
    The fiscal year 2004 estimate for salaries is $218.3 
million, or a 25.1 percent increase over the previous year. Our 
general expense request of approximately $72.2 million will be 
reduced by the $15 million related to the fiscal year 2003 
supplemental, for a total of approximately $57.2 million to 
fund the operational and administrative capacity of the 
Department.
    We have designed and implemented security systems to 
protect and prevent unauthorized physical and electronic access 
around this complex. A good portion of this budget will go to 
maintaining these systems at peak performance, and creating 
necessary expansions. Maintenance, life-cycle replacement, and 
expansions of services will cost approximately $8 million over 
the previous year.
    Also included is the equipment required of the new off-site 
delivery facility. The Capitol Police will incorporate in the 
facility cutting-edge technologies to examine all incoming 
deliveries, and stop any harmful package from entering the 
Capitol complex. The equipment and technology required to 
appropriately complete this facility will cost approximately 
$4.3 million.
    Funding is also requested for the accommodations, such as 
personnel, equipment, new staff, modernization of core 
information technology systems, and creation of the Capitol's 
first six-person mounted horse unit. We are also developing a 
Hazardous Materials Response Team, HMRT. This highly trained 
team, with civilian professionals will stand ready to deal with 
any chemical, biological, or radiological threat which could 
occur in the Hill.
    We have other highly trained elements that deal with 
explosives, armed intruders, unruly crowds, disturbed 
individuals, or other individuals who make threats. All of our 
response teams and, in fact, all of our operations rely on 
effective communications. The technological world of 
communications is constantly changing, and we need to keep in 
step with advances in this area.
    The Capitol Police employ several modalities of 
communication for effectiveness and redundancy. This budget 
plan requests additional funds to expand and update our 
communications capabilities to provide increased effectiveness 
in our operations. Whether it is effective communications, 
effective incident response, effective staffing strengths, or 
simply effective operations, we value being the best.
    The men and women of the Capitol Police are talented, 
motivated, and engaged professionals who take great heart in 
protecting this Congress. As Chief of the Capitol Police, and 
on the Department's 175th anniversary, I take great pride in 
the many years of service that the United States Capitol Police 
have provided the Congress.
    Building on that legacy, we at the United States Capitol 
Police look forward to continuing to safeguard the Congress, 
staff, and visitors to the Capitol complex during these 
challenging times, and we look forward to working with the 
Congress, and particularly this committee.

                          PREPARED STATEMENTS

    I thank you for your time, and I am ready to take any 
questions you might have.
    Senator Campbell. Okay. Thank you.
    [The statements follow:]

                Prepared Statement of William H. Pickle

    Mr. Chairman and members of the Committee, we are honored to appear 
before you to discuss the fiscal year 2004 Budget Request for the 
United States Capitol Police. With me today are the other members of 
the U.S. Capitol Police Board, Mr. Bill Livingood, Mr. Alan Hantman, 
and Chief Terrance Gainer. As you know Chief Gainer was sworn in as 
Chief of Police in June of last year.
    Having been appointed on March 17, 2003, I have been a member and 
the Chairman of the Capitol Police Board for a relatively short period 
of time. During that time, and based on past experiences, I have 
developed a strong respect for the capabilities and professionalism of 
the men and women of the United States Capitol Police. I would also 
like to express my appreciation to Bill Livingood, Alan Hantman, and 
Chief Gainer for their outstanding contributions and for their wise 
counsel during this learning period I am traversing. We have developed 
an excellent working relationship in this short period of time. A 
spirit of cooperation and unity has developed between us that will be 
evident in the future and I feel will best serve the Members of 
Congress, staff and visitors to the Capitol complex during these times 
of uncertainty and heightened security.
    This spirit of cooperation is strengthened by our shared focus and 
mission to protect and support the Congress in meeting its 
Constitutional responsibilities. The three thrusts that the Department 
has identified--Prevention, Response, and Support are key to meeting 
their mission. I support the vision of the United States Capitol Police 
to be a model federal law enforcement agency, leveraging partnerships, 
and being in the forefront in developing and implementing state-of-the-
art security, law enforcement, and incident response programs to ensure 
the continued protection of the Congress and legislative process in a 
changing threat environment. I further support training and other 
measures being taken to enable the men and women of the Department to 
meet the increasing challenges, and to perform at the highest levels of 
professionalism. I will undoubtedly have these items in mind when 
making decisions that impact the security of the Congress and impact 
the Capitol Police.
    I know that there are issues facing the Capitol Police. Facilities 
and space requirements are one of the critical issues. It appears that 
progress is being made in this area and in the not to distant future we 
could have movement on a new headquarters facility, and an offsite 
delivery center. I feel it is critical that we make sure that this 
momentum continues, because other plans are dependent upon it. One 
plan, which is dependent upon facilities and space, is staffing 
increases. The Capitol Police began, with committee support, an 
aggressive staffing increase. This budget addresses critical security 
needs for more officers and support staff to carry out the mission of 
the Capitol Police. These staffing increases are vital and I urge your 
support of the staffing strengths laid out in this budget plan, as well 
as coming decisions regarding facilities.
    Mr. Chairman and members of the Committee, I want you to know that 
I am very excited to be here and that I am looking forward to working 
with this Board, and the Committee on the security of the Capitol 
complex and the issues facing the Capitol Police. Thank you for this 
opportunity to appear before you today, Chief Gainer will present his 
remarks regarding current operations and Capitol Police plans for the 
coming fiscal year.

                                 ______
                                 
                Prepared Statement of Terrance W. Gainer

    Mr. Chairman and Members of the Subcommittee, I am honored to 
appear before you today to discuss the United States Capitol Police 
fiscal year 2004 budget request.
    Mr. Chairman, I would first like to thank the Committee for their 
continued support of the Capitol Police. The pay and other incentives 
received in the fiscal year 2003 appropriation are a significant 
advantage in recruiting, hiring and retaining good men and women in 
officer positions, as well as attracting highly qualified civilian 
professionals for key support roles and functions.
    We would also like to thank the Committee for its support of the 
acquisition of a new off-site delivery facility and a new headquarters 
building. We have been working with the Architect of the Capitol to 
develop our requirements for the new facilities and look forward to the 
day when we can occupy facilities that are capable of meeting our 
expanding needs.
    I am pleased and proud to announce a recent and important 
accomplishment of the men and women of the Capitol Police. The Capitol 
Police is the first full-service federal law enforcement agency to 
become fully accredited by the Commission on Accreditation for Law 
Enforcement Agencies otherwise known as CALEA. The Capitol Police 
voluntarily subjected themselves and were accredited after a lengthy 
process by CALEA. This accreditation by CALEA is a means of matching 
and scoring the Department against cutting edge, professionally 
recognized standards of law enforcement excellence. I congratulate the 
men and women of the Capitol Police for this outstanding accomplishment 
and their dedication to the mission of this organization.
    The United States Capitol Police is in a period of transition. Due 
to the ever increasing and underlying threat to the Congress, the role 
of the Capitol Police has expanded to ensuring the continuity of the 
Legislative Branch of government and the national legislative process 
as well as extending a sense of safety and protection to all who work 
in and visit the Capitol complex. We work very closely with the 
Sergeants at Arms and with leadership of both the House and the Senate 
to ensure that the security of the Congress is appropriately managed. 
The ability of the U.S. Congress to meet its constitutional 
responsibilities is intertwined with the ability of the Capitol Police 
to meets its mission. The Capitol Police is ready and willing to meet 
the challenge this changing environment poses to the structure of our 
operations. Our budget request of approximately $290.5 million, which 
as a result of the supplemental can be reduced to $275.5 million, 
represents a reasonable, necessary and balanced plan to directly 
address the threats of today and proposes the utilization of resources 
to ensure the protection of Congress, its Members, staff, visitors and 
the legislative process into the future. Our proposal is robust. The 
implementation of the USCP strategic plan, which this budget supports, 
will ensure the uninterrupted continuation of the Congress.
    This Committee has begun funding, and the Capitol Police are 
engaging in, an aggressive increase in police officers and civilian 
support personnel. This increase in staff is the largest and most 
important part of our budget, and hence our plans. The attainment of 
our goals depend, in part, on having the right people, in the right 
strength and numbers, organized into an effective and flexible blend of 
capabilities and skills. In order to meet this goal and provide a 
measured approach to adequately staff the Department to meet the 
threats and challenges that face security operations of the Congress we 
have undertaken, and are in process of finalizing, a comprehensive 
staffing study of all areas within the Department. This study, which is 
tied to our strategic plan, represents our professional recommendations 
for adequately staffing the Capitol Police with the right mix of sworn 
and civilian personnel to meet the needs of the current threat 
environment. We will provide the Committee copies of the study with 
appropriate staff briefings upon completion, which is expected within 
the next few weeks. The Capitol Police, as of April 5th had 1,393 sworn 
personnel and we anticipate concluding fiscal year 2003 with 1,569 and 
a budget request to finish fiscal year 2004 with 1,833 sworn officers. 
We also have 227 civilians with a goal to finish fiscal year 2004 with 
573 on-board professionals. This substantive increase in staff is the 
backbone of plans to fully staff all necessary law enforcement areas 
around the Capitol complex and to be able to provide sufficient 
intelligence capabilities, robust physical security and response 
functions as well as adequate administrative and logistical support 
services within the Police Department. The fiscal year 2004 estimate 
for salaries is $218.3 million or a 25.1 percent increase over the 
previous year.
    Our general expense request of approximately $72.2 million will be 
reduced by $15 million, related to the fiscal year 2003 supplemental, 
for a total of approximately $57.2 million to fund the operational and 
administrative capacity of the Department. We have designed and 
implemented security systems to detect and prevent unauthorized 
physical and electronic access around the complex. A good portion of 
this budget will go to maintaining these systems at peak performance 
and creating necessary expansions. Maintenance, life cycle replacement 
and expansion of services will cost approximately $8 million over the 
previous year. Also included is the fit out of the new offsite delivery 
facility. The Capitol Police will incorporate, in the facility, cutting 
edge technologies to examine all incoming deliveries and stop any 
harmful package from entering the Capitol complex. The equipment and 
technology required to appropriately complete this facility will cost 
$4.3 million. Funding is also requested for the accommodation, such as 
personal equipment, of new staff, modernization of core IT systems and 
creation of the Capitol's first six person mounted horse unit.
    We are also developing a Hazardous Materials Response Team (HMRT). 
This highly trained team of civilian professionals will stand ready to 
deal with any chemical, biological, or radiological incident, which 
might occur on the Hill. We have other highly trained elements that 
deal with explosives, armed intruders, unruly crowds, disturbed 
individuals, and individuals who make threats, etc.
    All of our response teams and, in fact, all of our operations 
depend on effective communications. The technological world of 
communications is constantly changing and we need to keep in step with 
advances in this area. The Capitol Police employ several modalities of 
communication for effectiveness and redundancy. This budget plan 
requests additional funds to expand and update our communications 
capabilities to provide increased effectiveness in our operations.
    Whether it is effective communications, effective incident 
response, effective staffing strengths, or simply effective operations, 
we value being the best. The men and women of the Capitol Police are 
talented, motivated, and engaged professionals who take great heart in 
protecting this Congress.
    As Chief of the Capitol Police on the USCP's 175th anniversary, I 
take great pride in the many years of service this Department has 
provided to the Congress. Building on that legacy, we at the USCP look 
forward to continuing to safeguard the Congress, staff, and visitors to 
the Capitol complex during these challenging times. And we look forward 
to working with the Congress and particularly this Committee.
    I thank you for your time and am ready to take any questions you 
may have.

    Senator Campbell. Did you have any additional comments, Mr. 
Pickle?
    Mr. Pickle. No.

                           MOUNTED HORSE UNIT

    Senator Campbell. Okay. Well, we have got our second call 
to vote. Senator Durbin will be back in 1 minute, and he will 
chair until I get back.
    I have got a number of questions. Let me ask you one that I 
am particularly interested in first, and that is: You included 
in your budget funds to start a mounted horse unit. Long before 
I was ever in public office, that is what I did. I was a 
training officer in Sacramento, and part of my responsibility 
was to train police horses.
    In fact, I wrote the manual for the Sacramento Sheriff's 
Department and the Law Enforcement Academy, and we did not have 
the budget to do that, but we watched other departments, like 
San Francisco, the success they had with crowd control during 
the riots years before that, and we were convinced, based on 
what other departments were doing, that one mounted patrolman 
in a crowd control situation is the equivalent of about ten on 
foot. But it requires some additional problems, like 
transportation, stabling, all the rest of the stuff.
    We did not have the budget to do it, so we might just put 
that in your think cap. It is probably a little different here, 
because a lot of people in this part of the country, they do 
not ride. Further out West, as you probably know, a lot more 
people do ride. What we did is: We found the police officer who 
had an interest and who owned his own horse, and the department 
leased them, not for much. I think it was $15 a day, as I 
remember, and the officers provided their own transportation to 
get them to work, and it saved the department a ton of money in 
not buying horses, not worrying about stabling, not worrying 
about feed, and doing all of the rest of the things.
    So I remember, we had about 30 on the mounted division of 
patrol. They only worked summers, and then we trained them in 
the wintertime, but they made a terrific impact for that 
department. And most big departments now use horses, not only 
because they are great with crowd control, but people like 
them, too. We found that they were public relations tools in 
dealing with visitors in our county parks.
    The only bad experience we ever had, I would have to tell 
you, is that we had this old cowboy that was also a policeman, 
and he was a team roper, and we were out on patrol one day by 
the parks, and we had this guy in a motorbike that kept zipping 
through, and we could not get him to stop. He would outrun us, 
because he was on a light motorcycle.
    Unbeknownst to the rest of us, this one sheriff, one 
deputy, he brought a rope with him one day, and he tied one end 
to his saddle horn, and when the guy went by, he roped him, and 
jerked him off his motorbike.
    He did not come back, by the way. He did not do that any 
more. So that was the only bad experience we ever had with 
them. All of the rest of the experiences with mounted patrol 
horses were good, so I want to do whatever I can to help you. I 
think it would just be a real benefit.
    The Park Police get horses donated, and they have a stable, 
as you know, down here. They have one up in Rock Creek Park, 
and they have another one right down here on the mall, too. I 
do not know what you had in your long-range plans to get a unit 
going, but I just want to commend you for doing that, and I 
think it is really going to make a very strong addition to the 
department.
    Chief Gainer. Thank you, Mr. Chairman. In light of that, I 
would like to double the request from six to twelve.
    Senator Campbell. I just got you a whole bunch of 
motorcycles. We have to do one thing at a time here. I will be 
back in just a moment.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin [presiding]. How are you?
    Chief Gainer. Good. Thank you, sir. It is good to see you.
    Senator Durbin. Please proceed. I see your family all the 
time in Chicago. They are doing well.
    Chief Gainer. Thank you, Senator. I just concluded my 
remarks, and I am available for questions, sir.

                          ADDITIONAL OFFICERS

    Senator Durbin. Good. Now, it is my turn. Let me ask you, I 
think it was 1 or 2 years ago, maybe last year, we talked about 
800 new officers in the Capitol Police. Tell me what the goal 
is today, how many more officers we are talking about.
    Chief Gainer. We have just completed our staffing plan. It 
took us a number of months to do that, and it was done from top 
to bottom within the Department, and it built off an earlier 
plan that the Department had done, as well as an outside 
vendor, who came in and did an analysis. We have just submitted 
that plan in the last couple of days to our Sergeant at Arms, 
so they have not had a chance to really digest it, but as you 
know, our current sworn strength is 1,393, and we anticipate 
finishing fiscal year 2003 with 1,569, and we would like to 
move towards 1,833 at the end of 2004. That is just the sworn I 
am talking about. I know that is a substantial increase. I 
would like to break down the larger areas of that.
    We would need 138 officers to staff in accordance with that 
1998 study that we did, which was done in concert with the 
Secret Service, and the Bureau of Alcohol, Tobacco and 
Firearms, and the U.S. Marshals Service, and the outside 
vendor, but that would permit us to post one officer outside an 
entrance for deterrence and surveillance, one officer at a 
magnetometer, one officer at the X-ray machine, and then 
another officer for surveillance behind that. Some of that was 
born out of our experience when our officers were killed in 
1998.
    One hundred and six additional officers then would be 
required to fully staff our explosive detection equipment, so 
that the itemizers that we think should be at each of the 
entrances for staff, or civilian, or visitors would have that 
additional capability.
    The Capitol Visitor Center will require 135 additional 
officers, given at least eight new posts, the magnetometer 
positions that will be there. The Botanical Garden, when it is 
fully staffed, and all of our officers are deployed there, 
would require an additional 27 officers. All these additions 
end up meaning you need more first-and second-line supervisors, 
so that would require 63 more.
    In addition, because of the different vulnerability in 
attacks, and the threat of attacks that we have, we would put 
119 more officers in and about the area, this includes 
increased visibility posts, our threats section, and to our 
protection unit.
    Senator Durbin. So the original estimate of 800, I do not 
know if you are familiar with that, and I--was that last year 
or the year before last year? Has that number changed? I 
believe we are talking about uniformed officers in 800. The 
goal of finding 800 officers over a given period of time, I do 
not know how many years it was----
    Chief Gainer. That has remained about the same then.
    Senator Durbin. About the same.
    Chief Gainer. Yes, sir.

                       ADDITIONAL CIVILIAN STAFF

    Senator Durbin. The civilian requirement, though, has gone 
up.
    Chief Gainer. It has gone up significantly. We have 227 on 
board now, and we would like to finish 2004 with 573, and, 
again, I know that is a whopping increase, but let me just hit 
the highlight of those areas which are above our current 
authorization.
    Some 59, nearly 60, would be just in the physical security 
area alone, whether it is physical security systems, 
countermeasures, and construction security. Another 143 would 
be in the administrative support area. Our Human Resource 
Division, with some of the growth, and taking over the 
responsibilities that were heretofore done by either the Senate 
or House, both our financial, our procurement, and the 
management of personnel, is very taxed. I think some of the GAO 
reports and others have appropriately criticized us for not 
having enough people to do the job there. So that 
administrative support, physical services, legal, additional 
trainers, would be 143.
    Logistics, whether it is property, vehicles, or facility, 
would require another 23.
    Our strategic operations and planning and incident 
management would require another 56 people, let me break that 
down. As I have indicated, the accreditation process in my 
remarks, we have just been approved for accreditation. It does 
require some people to maintain that. Our HMRT would grow. It 
is a new unit, that I believe has been previously authorized 
for 60 people, and our strategic operation and planning, where 
we are really merging a lot of the different planning 
functions, and adding, I think, to there, would require a total 
of 56. Our canine, off-site, investigations, and security aides 
would add an additional 15.
    Senator Durbin. If you attain these goals, what will be the 
total complement of the Capitol Police?
    Chief Gainer. The total number ultimately would be 1,833 
sworn, and 573 civilians, for a fiscal year 2004 total of just 
over, as my adders are adding behind me, and we project some of 
the civilian growth that I discussed above would occur in 
fiscal year 2005.
    Senator Durbin. It is 2,400, roughly, somewhere in that 
range.
    Chief Gainer. It is 2,929 at the end of fiscal year 2005.
    Senator Durbin. Historically, give me an idea, what was it 
1 or 2 years ago, before September 11th, let us say? Do you 
have any idea?
    Chief Gainer. I do not have that immediately in front of 
me, Senator. I will get that for you, sir. [As of September 30, 
2001, the Department had a total of 1,364 employees].
    Senator Durbin. It is clear, it is substantially----
    Chief Gainer. It is a big growth.

                          RECRUITING OFFICERS

    Senator Durbin. I will be the first to acknowledge that the 
men and women who serve in the Capitol Police have done an 
extraordinary job since September 11th at great sacrifice, 
personal and family sacrifice. We cannot thank them enough. We 
had a little button made. That did not say it. I mean it was--
our gratitude is genuine.
    I need to ask a question, though, because when we asked at 
an earlier panel--I am not sure that you were part of it--how 
many people have to be interviewed before you find, 
successfully find a new uniformed officer in the Capitol 
Police. I believe the number was ten. Is that still----
    Chief Gainer. That is an accurate number, but I am really 
delighted to say that we are not having any problems with the 
recruitment issue, and I think that is in a large part due to a 
couple of things.
    The pay package that you have agreed to, especially in the 
last year, has put us in the forefront in this area, plus the 
Department continues to gain a reputation of a good place to 
work, with a lot of different opportunities. And to the extent 
that other departments, whether it is the city or the 
surrounding states are not hiring, it is to our advantage.
    So at the moment, our impediment to getting people sworn in 
is our ability to get them through the police academy at 
Glynco. We anticipate, I think, about 360 people completing 
that program next year. In addition, we are looking at a 
lateral entry process that may permit us to bring any number of 
people in who are already trained either at FLETC or other 
certified academies, and bring them in through an instruction 
program that we would have here, so we could even grow quicker.

                         STAFFING ALTERNATIVES

    Senator Durbin. This is a personnel-intensive effort. What 
efforts are you making to find alternatives that would deal 
with security in a way that would require fewer people?
    Chief Gainer. Well, one of the ways you would do that is 
through overtime. There has to be a balance between the right 
number of people and the amount of overtime that is acceptable, 
this is more of an operational and cost issue than hiring 
people.
    Senator Durbin. I do not think my question was clear. What 
I am looking for is: Is there an alternative to this personnel-
intensive increase? Have you looked to technology, and other 
means to establish security that would not require as many 
FTEs?
    Chief Gainer. Yes. I mean technology is key to how we are 
managing what we do, but at the moment, we are leveraging the 
technology to the greatest extent we can. But given the number 
of doors, and garages, and entrances, that is where a lot of 
this labor-intensive deployment comes in. Even as we get to the 
opening of the Capitol Visitor Center, there is no indication 
at this point that other doors and entrances would be closed, 
so that all the technology and security that the Capitol 
Visitor Center brings would just be added personnel.

                             PUBLIC ACCESS

    Senator Durbin. At this time, we still have limited public 
access, do we not, to Capitol Hill and some of its buildings?
    Chief Gainer. Well, the total numbers are limited, but all 
staff, member, and public tours are open.
    Senator Durbin. In terms of Capitol tours as well, is that 
back up to the level that it was before September 11th?
    Chief Gainer. It is not.
    Senator Durbin. Is it envisioned that we will open the 
Capitol again to that same group or same number in the near 
future?
    Chief Gainer. I think we have to look at that on a weekly 
or monthly basis, and work with the Senate and the House 
Sergeant at Arms to determine what the appropriate number ought 
to be. Even as the war in Iraq was beginning to wind down, and 
we had anticipated that the threat level to the United States 
was going to be changed, we were examining that and working 
with both the Sergeant at Arms in moving towards opening 
further. I think as security information changes, hopefully, we 
will be able to suggest allowing more people in the Capitol.

                           LOC POLICE MERGER

    Senator Durbin. Some people would be surprised to learn 
that there are several different police forces on Capitol Hill, 
one of them being at the Library of Congress, and this 
committee has asked to see if we can integrate the Capitol 
Police with the Library of Congress security force. Can you 
tell me what progress has been made on that?
    Chief Gainer. Well, we are moving along with that rapidly, 
as you know, the law requires that I propose a plan to this 
committee and others by mid-August, I believe August 19th. I 
have had a series of personal meetings with the Librarian of 
the Congress and the Deputy Librarian. We have formed 
committees to work through the major issues, like the joint 
operations, personnel issues, and legal issues. We have hired a 
contractor, a former chief of police, who participated in a 
large merger of a city police department and county agencies.
    So, I believe we are well on track to present the plan, and 
the costs, and the implication of doing that. I also would make 
the record clear, from my point of view, that having a single 
department, under the command of the Capitol Police and under 
our budget control is better for security, and is very doable, 
as we work through all those technical issues to achieve that.
    Senator Durbin. I support it, of course, but I want to ask 
you two questions that have come up. One is: What are the 
different standards that we have, for retirement, for example, 
between the Library of Congress, security, and Capitol Police? 
Are you taking that into consideration, so that there is some 
accommodation or grandfathering of security officers currently 
at the library?
    Chief Gainer. Senator, that is one of the things we would 
be looking at. I met personally on two different occasions with 
most of the sworn employees at the Library of Congress, and 
assured them that my understanding of the intent of the 
committee, or the Congress, of our effort would not be to harm 
anyone in this, and that during all these committee meetings, 
as we develop our plan, we are going to have to figure out who 
can make the cut and meet our standards, who might need 
additional training, who might be grandfathered in, or who 
might be pensioned out.
    Senator Durbin. The other concern that the Library of 
Congress has made, I think, a valid observation is that their 
responsibility is a little different than the responsibility in 
other places in the Hill. They have a fiduciary responsibility 
when it comes to the collections that are priceless and 
irreplaceable, and view their security requirements somewhat 
differently than perhaps someone who is guiding hundreds of 
people through a Capitol Hill building.
    Are you taking that into consideration, in terms of the 
complement for security standards that will be used, and the 
supervision that will be sensitive to that need?
    Chief Gainer. Very much so. One of the ways we are doing 
that, again, is: All of our subcommittee working groups have 
people both from our agency and theirs, and I know there are 
things that we can learn from them, and them from us. I have 
also detailed an inspector over to that building, and the 
Library of Congress was good enough to give us space there, and 
we have offered to do some exchange programs now with our 
personnel, and we have invited them to participate in any of 
the in-service training classes that we have. But I have also 
pointed out to them that there is a lot of very important and 
historical items that we are responsible for in this Capitol 
complex, so in many respects, there is commonality of tasks.
    Senator Durbin. There are some similarities, no doubt about 
it.
    Chief Gainer. Yes, sir.
    Senator Durbin. I might also note that if I am not 
mistaken, the Capitol Visitor Center is going to create an 
underground access to the Library of Congress. It just makes 
sense for us to have a common security force that works 
together and complements one another, in terms of their 
responsibilities in that regard.
    Chief Gainer. Yes, sir.

                          APPLICANT ATTRITION

    Senator Durbin. I do not have any further questions here. I 
do not know if there are any for the record that the staff has 
prepared that they would like me to consider.
    You have stated for the record, Chief Gainer, that 
recruitment retention efforts have been improved because of the 
pay package and benefits that are available, but you said that 
it also, I hope I am not misstating this, that there were still 
some ten applicants for every person who was finally accepted 
to the Capitol Police force.
    Chief Gainer. That is correct, Senator.
    Senator Durbin. What are the reasons why people do not make 
the Capitol Police force?
    Chief Gainer. Well, the first cut you need to make is the 
written exam. So you need to get past the written exam, a 
physical, a background check, a psychological test and a 
polygraph examination. Once you get past all those, and there 
is an offer of employment, the candidate is then sent down to 
FLETC. So in that process is where people continually are 
weeded out.
    Senator Durbin. Can you give me ideas, percentages of those 
who would fail the written exam, physical exam or, when 
offered, not accept the position?
    Chief Gainer. I would have to get back to you with the 
specifics of that, Senator.
    [The information follows:]

UNITED STATES CAPITOL POLICE RECRUITMENT STATISTICS FOR FISCAL YEAR 2002
                           [As of May 1, 2003]
------------------------------------------------------------------------
                                                   Number      Percent
------------------------------------------------------------------------
Candidates Tested.............................        3,578  ...........
Candidates Passed.............................        2,697         75.4
Candidates Applied............................        1,959     \1\ 72.6
Disposition of Candidates Who Applied:
    Disapproved Prior to Conditional Offer....          571         29.1
    Declined Prior to Conditional Offer.......          257         13.1
    Disapproved After Conditional Offer.......          545         27.8
    Declined After Conditional Offer..........          185          9.4
    Background Investigation Pending..........           46          2.4
    Appointed.................................          315         16.1
    Scheduled for Appointment.................           11           .6
    Recommended for Appointment...............           29          1.5
                                               -------------------------
      TOTAL...................................        1,959        100.0
                                               =========================
Total Appointed, Scheduled & Recommended......          355  ...........
Percent of Candidates Tested..................  ...........          9.9
Ratio of Appointed to Tested..................  ...........      1 of 10
------------------------------------------------------------------------
\1\ Percent of those that passed.

NOTES:
A Conditional Offer is given prior to the polygraph exam, physical exam,
  and psychological evaluation.
Appointments from the 46 candidates currently pending completion of
  background investigation would slightly increase the percentage. If
  all were appointed the Percentage would increase to 11.2.

                       STUDENT LOAN REIMBURSEMENT

    Senator Durbin. Let me ask you: One of the things that we 
talked about is student loan reimbursement, and that has been a 
program that I have pushed, and there are some skeptics on the 
Hill. I think people with children in college, or recent 
graduates, understand how important this element is when you 
start talking about a job. Can you tell me whether this has 
been used by the Capitol Police?
    Chief Gainer. Well, we just, in the past 30 days, completed 
the regulations that would put that into effect, and we, in 
fact, anticipate that it will be fully operational by the 30th 
of July. I think the mandate of that would have it in effect by 
June. June is when the educational assistance program will be 
ready to be completely available. So we have laid out the 
regulations, the amount of money has been budgeted to do that, 
and now it is a matter of putting it into our recruitment 
efforts, and making it available to our current employees.

                      DIVERSITY OF THE WORK FORCE

    Senator Durbin. Can you give me any indication of the 
diversity of the Capitol Police force?
    Chief Gainer. Let me see if I have that.
    I am sorry, sir. I will have to get back to you on that.
    Senator Durbin. If you would. What efforts are being made 
to promote diversity in recruitment for the Capitol Police?
    Chief Gainer. Part of what we do there is, where we 
advertise, and where we visit. Over the course of 1 year, I 
believe there will be about 200 visitations our recruiters will 
make throughout the United States. I think it is 200. They will 
go to various colleges, universities, military bases. And that 
will be done, whether it is a college that is traditionally 
African American, or looking at recruiting from Puerto Rico, to 
try to increase the Hispanic level. So we target where we might 
find the most minorities or gender differences.
    [The information follows:]

                      UNITED STATES CAPITOL POLICE GENDER AND RACE OR ETHNICITY STATISTICS
                                                  [In percent]
----------------------------------------------------------------------------------------------------------------
                                                  Gender                         Race/Ethnicity
                                           ---------------------------------------------------------------------
            Number of Officers                                                      Black or  Asian or  Hispanic
                                              Male     Female     White   American   African   Pacific     or
                                                                           Indian   American  Islander   Latino
----------------------------------------------------------------------------------------------------------------
            AS OF MAY 12, 2003

1,436.....................................      81.6      18.4      65.3        .3      29.6       1.3       3.5

              AS OF JUNE 2000

1,199.....................................      82.2      17.8      67.3        .3      28.8       1.1       2.5
----------------------------------------------------------------------------------------------------------------
Note: Per Department of Justice statistics, in June 2002 the USCP had the second highest percentage of black
  police officers of all federal law enforcement agencies.

                          PAY SCALE COMPARISON

    Senator Durbin. How does your pay scale compare to the D.C. 
Police Department?
    Chief Gainer. Actually, we are above the D.C. Police 
Department in our entry-level pay, and our step increases, and 
the fact I happen to have a son who is a member of the 
Metropolitan Police Department, and was just shocked to learn, 
as he completed his 18 months, that he would not be getting a 
step increase because of budget problems that they are having 
there. That is not an issue we have.
    I will give you some examples. The entry level for a United 
States Capitol Police Officer is $43,166. For a Park Police 
Officer, it is $40,345. For a Secret Service Uniform Division, 
it is $40,349, and for the Metropolitan Police, it is $39,644. 
So just over the MPD, we are slightly better than $4,000.
    Senator Durbin. Forty-three----
    Chief Gainer. It is $43,100 for us and $39,600 for MPD.
    Senator Durbin. There was a time when we were losing 
Capitol Police officers to the Transportation Security 
Administration. Now, I see they are laying off people. Some 
3,000 more were announced yesterday, if I am not mistaken. 
Obviously, this may create a pool of talent looking to apply to 
come back to the Capitol Police. Have you noted that from any 
of the previous layoffs?
    Chief Gainer. Actually, some of the personnel that we lost 
that went over there had made inquiries about coming back here 
and, again, fortunately, the legislation that was passed by 
both the House and Senate recently permits us to do that.
    I might add that flying home from Chicago, where I was 
taking a son to look at a college, last night, I happened upon 
one of the officers who formerly worked for us. He was on that 
flight doing his duty, and we had a chance to kibbitz a little 
bit, and I suggested to him that he ought to come back home. He 
was lamenting about the travel, and some of the promises were 
not quite there, and I said we would welcome him back with open 
arms.
    Senator Durbin. Thank you, Chief.
    Mr. Chairman.

                       MOUNTED HORSE UNIT SUPPORT

    Senator Campbell [presiding]. Thank you, Chief. I 
understand Senator Durbin asked a number of questions that I 
was going to, too.
    I have a few more. While I was walking over to vote, I got 
to thinking I might have given you the wrong impression a 
little bit about the use of horses. I am very, very supportive 
of it, by the way, but I reflect back on my days when I was a 
training officer for those horses. And, you know, you see those 
old Westerns where these cowboys are running around shooting. 
Well, I want the record to reflect you can shoot off any horse 
once, and the next time you even look at your gun, you are 
probably going to go to a rodeo unless you have an awful lot of 
training.
    Chief Gainer. Noted.
    Senator Campbell. You will take that into consideration. We 
used to get a lot of help from, of all the strange places, from 
the Boy Scouts of America, and we got the local Boy Scout 
troops--and they loved it, by the way--to act as crowds. And, 
of course, it was kind of scripted, but we had them crumble up 
newspapers, for instance, and fill small water balloons, and 
throw them at us, do all kinds of stuff to get the horses used 
to these very unusual circumstances, but if they are trained 
right, they are going to do you a lot of good. So I hope you 
pursue that----
    Chief Gainer. Yes, sir.

                           LOC POLICE MERGER

    Senator Campbell [continuing]. And I will certainly help 
you.
    Let me talk a little about the merger of the Library of 
Congress. I do not know if Senator Durbin hit on that or not, 
but Speaker Hastert had a problem with that, based primarily on 
the difference of training, whether it was necessary for the 
police over at the Library of Congress to go through the same 
training or not. Do you find some additional challenges you had 
not expected in this merger?
    Chief Gainer. Well, there are a lot of issues to be worked 
through yet, and to develop the plan that we owe you by August 
19th, none the least of which is how you transfer individuals 
and make them meet our standards. One of the things that is in 
the legislation requires that any new hires would meet the 
standards of the United States Capitol Police, and we have 
talked with them about that.
    So some of our subcommittees will be working on the issue 
of who can make the cut and simply put on our uniform rather 
quickly, with a minimal amount of training, and who, because of 
either background, or physical ability, or age, would not do 
that. Then we would have to work through, if that is the case, 
if there is a group of those individuals, are there things that 
can augment the security that needs to be done either in the 
Library of Congress, or elsewhere, that would accommodate them, 
or offer them buyouts, or early retirements.
    I do not think there are any impediments, except some of 
the public statements that I have heard that would indicate 
that the Library of Congress supports the notion that the 
budget for this unit would be within their budget. I could not 
support that, and I would not recommend that to either the 
Police Board or this committee, or the notion that the ultimate 
commander of that unit, whether it is an inspector, if it is 
similar to our other divisions, would report directly and 
outside of the chain of command of the police department. I 
think those are two very key issues of command and control that 
would be essential for the successful merging of the agencies.
    Senator Campbell. When they hire, do they have the same age 
requirements as the Capitol Police?
    Chief Gainer. At the current moment, they do not.
    Senator Campbell. They do not. They have requested 54 
additional officers, as I understand it, in the fiscal year 
2004 budget. Can you, or do you, or have you done an analysis 
about the need for those positions, and how the hiring of their 
officers might affect this planned merger, for instance, if 
they are hiring of an age that is above the age restriction you 
have? Is that going to be a problem?
    Chief Gainer. The analysis of that is in the embryonic 
stage. We have to do more work on that, and figure out what the 
implication is, and why they would want that number.
    Senator Campbell. Is that included in your manpower study 
that you are doing?
    Chief Gainer. It is not.

                             STRATEGIC PLAN

    Senator Campbell. It is not. In your manpower study, is 
that part of your strategic plan?
    Chief Gainer. The merger of the Library of Congress police?
    Senator Campbell. Yes.
    Chief Gainer. It is, sir.
    Senator Campbell. It is. Has there been an outside agency 
hired to do that, or are you doing that in-house?
    Chief Gainer. The merger process, or the----
    Senator Campbell. The strategic plan, in general.
    Chief Gainer. The strategic plan, the one we just 
completed, was done largely in-house, based on earlier work the 
police department had done. But only in the last 24 hours have 
we had some conversations with the GAO to ask them to both 
please help us with the strategic plan and the staffing plan to 
make sure that they coalesce, as we think they do, and to 
ultimately deliver a strategic plan that is in conformity with 
the recent legislation that requires something done by sometime 
this summer.

                               FACILITIES

    Senator Campbell. This summer. Okay. On your facility 
needs, did we not last year provide money for a training 
building for you?
    Chief Gainer. Yes, sir.
    Senator Campbell. What is the disposition of that? Is that 
going to also house your new headquarters, or just the 
training?
    Chief Gainer. It is out in Cheltenham, Maryland. It was 
opened just about 1 year ago, this past summer, and it is part 
of the Federal Law Enforcement Training Center properties. We 
completely occupied, and staffed it. That is where we are 
training the individuals. But also in the supplemental budget, 
there was money given for a new training facility out there 
that would accommodate live fire and tactical training of our 
officers.

                                TRAINING

    Senator Campbell. Do they do 80 hours of training there? I 
thought I saw 80 hours somewhere in my notes.
    Chief Gainer. One of our goals is to increase in-service 
training for everybody to 80 hours. Now, we have fallen short 
of that thus far, mainly because of the overtime requirements, 
and the threat conditions we are operating under. Most police 
departments, progressive police departments, like 40 hours. 
Again, we want to be the best.
    Senator Campbell. Forty?
    Chief Gainer. We want to be on the cutting edge, and have 
80 hours. The average, some officers have had 80 hours. Most 
officers right now have only had 40. We instituted a training 
day. Every single day is a training day, where at a roll call, 
everybody gets 8 minutes on some type of subject. We still have 
work to do to get everybody up to 80 hours, which also, I might 
add, is one of the reasons for the manpower increase.
    So the 40-hour in-service training, morphing to 80 hours, 
is in addition to the firearms training we get. In order to do 
that, you have to have people not on post, and not working 
overtime.

                         RETENTION OF EMPLOYEES

    Senator Campbell. For a while, you had a retention problem. 
I think you alluded to it earlier. People were going through 
your training, and then trying to get into another agency, air 
marshal, or something of that nature, and that, I understand, 
has slowed down. Have you had any people who want to transfer 
in from other departments?
    Chief Gainer. We have. I just mentioned, I happened to fly 
in a plane last night with an individual who is a former member 
of our agency of 10 years, and went over to the sky marshals. I 
invited him back, and he was at least thinking it over. We also 
had some inquiries by about a half-dozen other employees who 
have left the Department.
    Senator Campbell. He was one of your former officers.
    Chief Gainer. Yes.

                         LATERAL ENTRY PROCESS

    Senator Campbell. Have you had some that were not your own 
former officers? If they come in, do they go through the same 
amount of training, or the same type, or do they have some 
abbreviated lateral transfer consideration, or something in 
lieu of that?
    Chief Gainer. It is a great question, sir. It was only in 
the past year that we received the ability to do that, and in 
the past 30 days, we have sat down with both our recruiters and 
trainers to implement a program that we hope that by the fall 
will introduce a class of only lateral-entry officers, who have 
either gone through FLETC under some other Federal agency, or 
some accredited agency, that would then only be trained from 8 
to 10 weeks at our academy at Cheltenham.
    Senator Campbell. Eight to 10 weeks. As I remember, years 
ago, our training was around 12 weeks, which was kind of an 
average in California in those days.
    Chief Gainer. Universally, it has grown. Our officers do, I 
believe, 12 down at FLETC, and another 12 up here.
    Senator Campbell. When they do the 12 up here, do they live 
at home, or are they in a dorm facility?
    Chief Gainer. They do not stay at the facility.
    Senator Campbell. I have a few other questions, that I do 
not know if Senator Durbin touched on or not. So that I do not 
duplicate those, the remaining ones I will submit. If you will 
answer them in writing, I would appreciate that.
    Chief Gainer. Thank you, Senator.

                      SHINING LIGHT OF THE NATION

    Senator Campbell. I just want to tell you that it is my 
personal hopes that the Capitol Police become the shining light 
of the police departments nationwide. There are a lot of good 
police departments out there, and since I used to be the 
Chairman of the Treasury Subcommittee, I used to visit a lot. I 
worked with the HYDA program, and the ATF, and a lot of groups, 
the CTECH transfers. I have seen a lot of them, and there are 
some really good ones.
    It has always seemed to me that the Capitol ought to be a 
step above and ahead in terms of what the American public sees 
when they think of an American police officer. I have carried, 
I think, more legislation in this Senate than any of my 
colleagues on police bills, the bulletproof vest bills, the 
cops in schools programs, I mean a hell of a bunch of them.
    One of the things I still remember from the days when I was 
a deputy, I was teaching school at the same time, and that was 
in the days when the word ``pig'' was a common word for a 
police officer. It used to bother me that so many young people, 
at least in those days, did not see policemen as people who 
have a family, and had kids, and were Dad, and coached Little 
League, and did all the stuff that normal dads or moms do.
    Part of the job, it seems to me, of a good progressive 
police department is trying to bridge that gap with young 
people, so that they could grow up respecting policeman, 
because in this day and age, I also have the view that since 9/
11, policemen, as well as firemen, EMTs, and others, they are 
going to be the real front line warriors in this whole new 
defending-America-system that we find ourselves in. And I 
cannot think of a department I would rather have be the kind of 
shining light of all police departments than our Capitol 
Police.
    I want to tell you that I intend to be very, very vocal and 
very forceful of the things that you want to do with the police 
department.
    Chief Gainer. Senator, I appreciate that. I neglected to 
take this opportunity to say: There are many members of this 
department, union representatives, both civilian and sworn, in 
the room with me, and they have done a tremendous job over 
these years, and I am so proud to be here with them, and I will 
pass your comments on to them.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Campbell. Well, pass that on. I am particularly 
happy that you are going to upgrade the protection of members, 
because I am getting too old to wrestle guys down and handcuff 
them, like I did for Strom Thurmond about 5 years ago.
    With that, I have no further questions, but I will submit 
some in writing. I appreciate you being here.
    [The following questions were not asked at the hearing, but 
were submitted to the Board for response subsequent to the 
hearing:]

         Questions Submitted by Senator Ben Nighthorse Campbell

                             MANPOWER STUDY

    Question. Your agency has been working on a manpower study to 
identify staffing needs.
    Why haven't you completed the strategic plan prior to making 
staffing decisions?
    Answer. We are approaching the Strategic Plan development in 2 
phases:
  --Phase 1--update of the October 1999 Plan by reaffirming our 
        mission, vision and values, reviewing strategic direction and 
        goals to ensure the plan addresses the changing threat 
        environment; and considering changes to format as well. We have 
        completed Phase 1 and the plan has been presented to the Board 
        who is currently reviewing the document.
  --Phase 2--Summer 2003. Rewrite the plan and prepare an 
        accountability report that shows our progress against the plan.
    The staffing study was started after the initiation of Phase I of 
the Department's strategic plan. After the initial draft of Phase I was 
completed, the Department's Command Staff performed a review of both 
the strategic plan and the draft-staffing document. This review tied 
the staffing requirements identified in the staffing analysis to the 
mission, vision and goals of the organization as stated in the Phase I 
of the strategic plan to ensure that there were no inconsistencies 
between the two documents.
    Question. What are the criteria you used in determining staffing 
needs? Have you figured out what each position is going to do and what 
contribution it will make toward accomplishing your vision for the 
Department?
    Answer. Assessing the staffing requirements of the Department 
included two components, a thorough analysis of sworn staffing 
requirements and civilian staffing requirements. Each analysis was done 
separately but each used some similar methods to derive the needed 
staffing levels of the Department. Both analyses looked at the current 
staffing needs, as well as projected needs in fiscal years 2004 and 
2005, as determined by the Department's Strategic Plan, and included 
input from key personnel throughout the Department. The analyses also 
drew on information from other staffing analyses and studies, done 
either internally or by outside consultants. Outlined below are the 
specific methodologies used for deriving sworn staffing requirements, 
and the methodology used for civilian staffing requirements.

Summary of Sworn Staffing Methodology
    In order to determine the requirements for sworn staffing levels of 
the United States Capitol Police, discussions were held with Bureau, 
Division and Section Commanders. Determining sworn staffing 
requirements is a constant project due to the every changing needs of 
the Department and is based on new assignments, additional protection 
details based on threats or directions of interest, visiting 
dignitaries, staffing for unexpected security requirements and, more 
recently, the Homeland Security threat levels. The methodology used is 
outlined below.
  --Discussed with Bureau, Division and Section Commanders to determine 
        how their responsibilities have changed since 9/11, the anthrax 
        incident and the increased threat to the Capitol complex due to 
        terrorism, chemical, biological and radiological threats.
  --Discussed with Bureau, Division and Section Commanders how 
        technology could assist and be incorporated within their area 
        of responsibility.
  --Used recommendations from the 1998 United States Capitol Police 
        Security Review and the Booz-Allen & Hamilton Personnel Audit 
        of Security Operations at the Capitol complex to establish 
        standardized criteria to compute the number of officers 
        necessary at each post throughout the Capitol Complex.
  --Reviewed the supervisory ratio within each Bureau to meet the 
        standard ratio of 1 sergeant for every 10 officers and 1 
        lieutenant for every 40 officers.
  --Standardized the posts within the Uniformed Services Bureau to 
        allow for one officer per piece of equipment i.e., x-ray, 
        itomizer, podium, magnetometer at all access points and, in 
        addition to the previous, a pre-screener at all visitor access 
        points.
  --Reviewed the staffing levels in Dignitary Protection Division to 
        allow for 2 agents per protectee per shift. In addition to 
        increased manpower, allowed for sufficient advance personnel 
        for both in and out of town operations.
  --Standardized protection details into three levels. Level one--
        Individual, who as a result of their leadership position, 
        public profile, recorded threat activity or related factors, is 
        deemed to require protection while in the Washington 
        Metropolitan Area. Level two--Individual, who as a result of 
        their leadership position, public profile, recorded threat 
        activity or related factors, is deemed to warrant protection 
        within and outside the Washington Metropolitan Area. Level 
        three--Individual, who as a result of their status as a 
        Presidential successor, leadership position, public profile, 
        recorded threat activity or related factors, is deemed to 
        require around-the-clock protection at all locations.
  --Determined the minimum number of instructors necessary to conduct 
        training programs, by the using a staffing formula. The formula 
        begins with the total number of classes/programs multiplied by 
        the number of program hours divided by the number of hours an 
        instructor is available for classroom/practical exercise 
        instruction. In utilizing this method for determining staffing 
        requirements, the Training Services Bureau can ensure that it 
        meets its mission with a calculable and logical approach.

Summary of Civilian Staffing Methodology
    In order to determine the requirements for civilian staffing levels 
within the USCP, we initiated a project team consisting of staff from 
the Offices of Financial Management (OFM), and Human Resources (OHR), 
specifically the Director of OFM, the Budget Officer, the Deputy 
Director of OHR and the Staffing Classification Specialist. The project 
was carried out over a period of five months and began as a zero-based 
civilian staffing analysis of the entire Department. The methodology 
used by the project team is outlined below.
  --Met individually with each Office Director or Bureau Commander and 
        their respective Division managers to determine the unit's role 
        in meeting/advancing the Department mission and how those 
        responsibilities have changed since the September 11th and the 
        Anthrax incidents and whether those changes in responsibilities 
        have impacted the need for civilian staffing.
  --Interviewed the Office/Bureau staff about all aspects of their 
        staffing requirements, leading to constructive discussions and 
        analysis on workload and staffing issues.
  --Analyzed, during workgroup sessions, how such items would impact 
        staffing needs: mission changes, paradigm shifts and new 
        requirements.
  --Discussed and analyzed the existing and needed administrative 
        support for the Bureaus/Offices, and benchmarked an 
        administrative structure in each Bureau/Office. The standard 
        office (or model office) would include the following 
        administrative positions: one office manager, one 
        administrative assistant and possibly one management analyst, 
        depending upon the size, complexity and unique needs of the 
        Office/Bureau.
  --Analyzed the potential for civilianization, based upon our three-
        prong criteria.
    --Does the position require police powers to effectively carry out 
            the duties assigned?
    --Does the position require law enforcement training?
    --Does the position provide required background for the upward 
            mobility of sworn staff?
  --Reviewed and analyzed any studies and analyses that have been 
        performed either internally or by outside consultants to 
        determine the optimal staffing levels for civilians within the 
        USCP. Documentation reviewed included desk audits, previous 
        staffing studies, other agency comparisons, and workload 
        assessments.
  --Developed staffing needs for each Bureau/Office. The staffing 
        requirements were broken out by immediate needs and out-year 
        needs.
    Question. What is wrong with existing security practices that 
requires change and why does that revision require additional staff?
    Answer. In 1998/99 Booz Allen Hamilton performed a validation of 
our staffing model and a standard was developed for staffing posts. 
Since that initial study, the Department had been working to achieve 
the developed standard, but had not achieved the level of staffing 
required by the model. The recent staffing study incorporated that 
model which is still appropriate for the Department. In addition to 
standard model staffing, there have been many changes since 9/11--we 
have added a significant number of posts and have been tasked with 
several additional duties, which require additional staff to adequately 
perform. The following summarizes, in general, the types of activities 
we are supporting and plan to support. Should your staff require more 
detailed information, we will be happy to provide in a closed forum.
  --Ability to fully staff posts according to a model standard--A 1998 
        study conducted by the United States Capitol Police, in concert 
        with the United States Secret Service, the Bureau of Alcohol, 
        Tobacco and Firearms, and the United States Marshall Service, 
        developed a standard for staffing of entrance posts to 
        buildings within the complex. Booz Allen Hamilton subsequently 
        validated this standard in an independent review.
  --Responsible for operating multiple technologies and sources for the 
        collection and dissemination of critical information utilizing 
        multi-media technologies to maintain situational awareness of 
        ongoing events as well as our expanding role in Hill-wide 
        communications and emergency notifications.
  --Expansion of the intelligence and investigative capabilities of the 
        Department to enable a more comprehensive analysis of 
        intelligence data and threats against Members of Congress as 
        well as an increased level of involvement and coordination with 
        Dignitary Protection Division who provide protection for 
        Congressional leadership.
  --Management of the increasing threats caseload of almost 3,000 
        threats and direction of interest cases per year.
  --Expansion of specialized tactical response capability for the 
        Congress, enhanced protection during evacuations occurring on 
        the Capitol complex, coordinated reconnaissance operations for 
        visiting Heads of State/Dignitaries, participation/coordination 
        of assault operations occurring on the Capitol complex. Conduct 
        of counter-sniper operations during special events that require 
        enhanced protective measures, and provision of specialized 
        response capabilities during hostage/barricade situations.
  --Implement new training initiatives for increases in staff and the 
        complexities of incident response and management as well as 
        other technical training requirements resulting from the 
        increasing complexity of our responsibilities.
    Question. What activities are envisioned for facilities management 
(especially given AOC's role in this)?
    Answer. The Architect of the Capitol currently manages the 
facilities for the United States Capitol Police. There are currently no 
plans to assume the functions of the AOC with respect to USCP 
facilities. However, we have established a good working relationship 
with AOC staff, since close coordination with the AOC on all projects 
is critical. As such, the coordination of projects, the defining of 
operational requirements and the facilitation of work to reduce the 
impact on operational effectiveness and OSHA and other safety reporting 
and inspection responsibilities requires Capitol Police resources. In 
addition, we envision that the facilities group, which would fall under 
the Physical Securities umbrella, would coordinate with the AOC on 
physical construction site security issues. Activities envisioned for 
facilities management include:
  --Coordinating all office, lab, training and warehouse space needs 
        for the Department. To accomplish this, we would perform space 
        analysis to meet USCP operational requirements; review and 
        verify program requirements; recommend innovative and efficient 
        use of existing space; and work with the AOC and contracted 
        vendors who supply maintenance services to the Department. 
        Coordinating the daily maintenance and improvement of space 
        occupied by USCP employees by providing innovative and 
        efficient use of existing buildings, rooms and work space.
  --Planning and managing all construction activity for the USCP by 
        performing site evaluations, overseeing the development of a 
        conceptual site plan and building plan, reviewing construction 
        documents, reviewing/establishing schedules, serving as the 
        initial point of contact for security systems, data 
        connectivity and telecommunications and furnishings 
        integration.
    Question. Has consideration been given to contracting for some 
services on an as-needed basis rather than establishing a permanent 
capability to do everything in house--assuming that is what these 
numbers intend.
    Answer. The Architect of the Capitol currently manages the 
facilities for the United States Capitol Police. There are currently no 
plans to assume the functions of the AOC with respect to USCP 
facilities. Contracts for facility maintenance, etc. will continue to 
be managed and funded by the AOC.
    Question. Who outside of the agency did you consult with in 
developing your manpower study?
    Answer. As indicated in the response above, we leveraged any 
previous studies performed on staffing levels in the Department to 
determine appropriate personnel levels. In addition, we consulted with 
GAO staff on general project direction, while we were performing the 
study. Also, at the request of the Committees, we are working with GAO, 
which is currently performing a review of our study.

                       FISCAL YEAR 2004 STAFFING

    Question. Your budget assumes the addition of 301 additional sworn 
positions next year. Is it realistic that you will be able to recruit, 
train and accommodate this many new officers next year?
    Answer. We believe we can both hire and accommodate the requested 
number of officers for fiscal year 2004 due to the success of our 
recruitment efforts and lower than expected attrition rates. We will be 
filling the 360 slots that we have been allocated at the Federal Law 
Enforcement Training Center (FLETC). In addition, attrition has been 
down substantially from fiscal year 2002. As a result of these factors, 
we are currently projecting to end fiscal year 2003 with 1,569 sworn 
personnel, which is 27 above the level planned when the fiscal year 
2004 budget request was developed.
    We have been coordinating with the AOC and additional space has 
been identified in the Government Printing Office facilities. Funding 
for additional interim leased space was provided to the Architect of 
the Capitol in the fiscal year 2003 supplemental and we anticipate 
utilizing the space very soon.
    Question. Will these additional positions allow you to eliminate 
overtime? How much in savings will be achieved by eliminating or 
reducing overtime?
    Answer. The new positions will reduce our overtime needs but 
because of special events, late sessions, extended hours of the 
dignitary protectees, demonstrations, and normal vacancies, overtime 
never will be eliminated. We have calculated that the cost of covering 
the 1,656 average productive hours of an officer with overtime is 
almost comparable to the annual cost of an employee when benefit and 
leave costs are factored in. Therefore, covering posts with overtime is 
not more expensive. However, operating and morale issues make regular 
staffing the preferred option.
    In fiscal year 2002, $27.25 million was spent on overtime. We 
currently are projecting that we will spend approximately $24.5 million 
in fiscal year 2003 for some 568,000 hours of overtime. Our fiscal year 
2004 budget request, including COLA increases, includes approximately 
$23.5 million for an estimated 513,000 hours of overtime. We have 
estimated that at full staffing levels we will be required to work 
approximately 260,000 hours of overtime to cover those type of items 
discussed above. At today's salaries, this would cost approximately 
$11.6 million. We should point out that because not all posts are being 
covered, some new staff would be assigned to cover currently unmanned 
posts.

                           CIVILIAN STAFFING

    Question. You are requesting 573 civilian positions next year--a 76 
percent increase above this year and a much more dramatic increase over 
prior years. Can you explain why this is necessary?
    Answer. The civilian staffing levels requested have been adjusted 
since the development of the fiscal year 2004 budget request to 491 to 
accommodate the most critical staffing needs and to provide for a 
rational implementation phase-in. Additional civilian positions will be 
requested in future budget years. The requested civilians will allow 
the Department to expand and improve critical ongoing functions as well 
as provide for important new initiatives. The additional staff will 
play a vital role in ensuring that each operational function is carried 
out in a manner that would ultimately enhance the Department's ability 
to fulfill its mission of protecting the Congress. In addition, the 
position of the CAO is only two years old and many new functions 
required to operate a sound administrative infrastructure are provided 
for in the request. The following summarizes the types of activities 
civilians in the Department are supporting or are proposed to support 
over the next two years.
  --Expansion of security related systems due to the dramatic increase 
        in the importance, size and complexity of physical security and 
        technical security programs to counter the threat of terrorist 
        actions. Areas of significant activity in this area include: 
        Physical security; Security support; Security surveys; 
        Technical and electronic countermeasures; and Construction 
        security.
  --Expansion of the investigative capabilities of the Department will 
        enable a more comprehensive analysis and tracking of 
        intelligence data and threats against Members of Congress, as 
        well as an increased level of involvement and coordination with 
        the various task forces associated with Homeland Security and 
        intelligence gathering efforts.
  --The consolidation of the Command Center and Communications Center 
        and related activities.
  --Bureau and Office Administrative Support to enable officers 
        currently filling administrative functions to return to the 
        field.
  --Coordination of planning within the Department for scheduled major 
        events and unexpected emergencies throughout the Capitol 
        complex as well as consolidating strategic and operational 
        planning
  --The Hazardous Material Response Team (HMRT) is being staffed and 
        will provide a response capability for detection, 
        identification, litigation, and decontamination for the Capitol 
        complex. When there is a report of a suspicious item, a team 
        comprised of sworn hazardous devices and civilian hazardous 
        material response personnel will respond to the scene. HMRT 
        also will be capable of conducting tests and sampling to 
        determine the extent of any contamination.
  --The Off-site Delivery Center (OSDC) currently utilizes civilians to 
        handle freight and as administrative assistants. In the next 
        fiscal years, 15 officers who currently screen the freight and 
        trucks will be replaced with civilian truck screeners who were 
        hired for the CVC project. These truck screeners will assume 
        the screening role at the OSDC in a phased approach over the 
        next two years. As the CVC project nears completion, the truck 
        screeners will be phased in and the officers will be phased 
        back into other assignments.
  --GAO and our external auditors have identified human resource 
        management as an area of significant weakness. The proposed 
        staffing is aimed to address the identified weaknesses, provide 
        resources to handle the significant staff increases throughout 
        the Department and build a best practices human capital 
        function.
  --Anticipated staff for the newly created Office of Employment 
        Counsel and augmentation of the Office of General Counsel to 
        provide legal counsel and representation to the Capitol Police 
        Board before federal courts and the Office of Compliance.
  --The USCP Vehicle maintenance function has grown significantly since 
        September 11th. At the direction of the Committees, we have 
        implemented a vehicle take home program for K-9, which has 
        significantly increased the maintenance cycle of these 
        vehicles. In addition, we have acquired additional, and more 
        complex, vehicles, which require personnel to maintain.
  --Property and asset management functions have increased due to 
        increased workload and the increase in equipment purchases 
        since 9/11.
  --Additional instructors are necessary to provide training to new 
        sworn positions requested to ensure all recruit and incumbent 
        officers meet training standards. Areas include lethal and non-
        lethal weapons training, legal instruction, and response to 
        nuclear, chemical, biological, and radiological threats. These 
        training initiatives require periodic re-training and 
        remediation to meet training and accreditation standards.
  --Modernization of fiscal services is necessary to provide better 
        accountability over budgets and budget execution, address the 
        backlog and delay of procurement actions, and improve the 
        Department's ability to effectively carry out the acquisition 
        planning process and move from crisis mode operations to an 
        orderly acquisition process. In addition, there are several 
        critical accounting functions which are either not being 
        performed or are not adequately being performed such as : 
        completion of full set of GAPP financial statements and all 
        treasury reporting.
  --Expansion and modernization of information technology efforts will 
        allow for the continuation and expansion of the business 
        systems modernization program to update and support legacy 
        systems as well as maintain existing systems and develop new 
        system capabilities.

                             FACILITY NEEDS

    Question. The Capitol Police have identified many facility needs, 
as your agency grows and improves its capabilities, including the need 
for a new headquarters building and a new off-site delivery facility. 
This Committee has provided partial funding for the headquarters 
facility and full funding for the delivery facility. Please update us 
on where you are with these two facilities including recent setbacks 
you have had.
    Answer.

Headquarters
    On March 12, 2003, the Capitol Police Board approved Square 695 
(New Jersey Ave. and I Street SE) as the site location for the new 
headquarters building. The Architect of the Capitol (AOC) is preparing 
letters requesting permission to proceed to negotiate for the purchase 
of the property. The Facilities Master Plan will require an update to 
reflect increased staffing levels requested in the fiscal year 2004 
budget submission and relative impact on the space required in the new 
headquarters.

Off-Site
    In October 2002, the Capitol Police Board approved the USCP/AOC 
submitted proposal to the Board for a new site for the off-site 
delivery facility to be located in NE Washington, DC. In November 2002, 
the AOC submitted letters to Senate Committee on Rules and 
Administration and the House Office Building Commission (HOBC) 
requesting approval to negotiate for the purchase of the property. 
However, the AOC did not receive approval to negotiate due to the 
elections and subsequent change in leadership. In January 2003, the AOC 
received approval to reprogram funding to purchase the property. The 
AOC also resubmitted requests to negotiate to HOBC and Senate Rules, 
and received Senate Rules approval in early February. Unfortunately, in 
April 2003 before all approvals could be received, the property owners 
sold the property to another entity. Currently, the AOC has no 
prospects on a suitable site that meets the unique characteristics 
associated with an off-site delivery center.
    Question. What is the interim solution for addressing space 
deficiencies and do you have the space you need to accommodate the 
additional staffing you have requested for next year?
    Answer. The USCP has taken several steps to accommodate increases 
in staff until a permanent headquarters solution is found. There have 
been ongoing requests through the AOC to the respective oversight 
committees for additional space in the Capitol complex to accommodate 
our growth. However, these requests have not proved fruitful. The USCP 
has identified space located in the Government Printing Office building 
at 732 North Capitol Street that could support some administrative 
functions and storage. The USCP has requested the AOC submit a request 
to the authorizing committees to secure this space as a partial interim 
solution until a new headquarters can be built. The USCP continues to 
compact existing space, exacerbating already over crowded conditions. 
In preparation of projected space deficiencies, the USCP has attempted 
to develop an interim space plan to bridge the gap until a new 
headquarters building is completed. The plan is a ``cut to the bone'' 
approach, with recommendations for utilization or, in most cases, over-
utilization of existing space assigned to the Department. The 
Department has reduced the size of training and roll call space to 
create administrative space. Emergency equipment has been re-located 
out of 119 D street and been placed in a storage container box outside. 
The closing of a corridor in 119 D has provided additional space for 
lockers, and gymnasium equipment is being relocated to an attic area to 
provide additional space for lockers. However, the adjustments within 
the current headquarters are insufficient to meet our needs. In 
addition, we are exploring possible alternatives to achieving space 
requirements by looking to other federal entities for space and then 
finally to identify lease options in proximity to the Capitol complex.

                          DIGNITARY PROTECTION

    Question. During consideration of the recent supplemental spending 
request, the Board decided to pull back its request for additional 
protective details. What is the status of your review of the adequacy 
of the dignitary protection program and when will you submit those 
results to the Committee?
    Answer. The Capitol Police maintains dignitary protection for 
Leadership and for other Members of Congress based on intelligence 
information and review of threats that warrant increased protection 
levels. This policy remains in place and remains appropriate for 
operations at this time.

                          CAPITOL POLICE BOARD

    Question. In the fiscal year 2003 appropriation bill, Congress 
required the Capitol Police Board to undertake a review of its mission 
and effectiveness.
    What is the status of that review?
    Answer. The Board currently is evaluating the implications of the 
Congressional directive contained in Public Law 108-7 and is confident 
that it can meet the statutory time requirements (initial review and 
report due August 20, 2003) to provide the necessary report and 
recommended adjustment to the Appropriations Committees. At this point 
in time, our staff has reviewed the GAO report and associated 
recommendations as well as potentially relevant corporate governance 
statutes and related materials to assess and evaluate their impact on 
the future mission, processes and direction of USCP Board. Based on the 
results of the review, recommendations will be forthcoming in August as 
required by the Statute. A vacancy announcement for the Executive 
Assistant for the Capitol Police Board has been approved by the Board. 
The implementation of administrative processes that are being developed 
will be greatly enhanced by this position.
    Question. Do you have any preliminary ideas as to whether there 
ought to be any changes to the mission and duties of the Board, 
including whether the term of the chairman ought to be a full Congress, 
rather than a session of Congress?
    Answer. Since a comprehensive analysis is ongoing and not yet 
completed, it may be premature to conjecture on additional specifics 
regarding final recommendations.

                          SUBCOMMITTEE RECESS

    Senator Campbell. The subommittee is recessed.
    Chief Gainer. Thank you.
    Senator Campbell. Thank you.
    [Whereupon, at 11:05 a.m., Thursday, May 1, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
